<html>
<title> - [H.A.S.C. No. 112-135]AFGHAN NATIONAL SECURITY FORCES: RESOURCES, STRATEGY, AND TIMETABLE FOR SECURITY LEAD TRANSITION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 112-135]

                    AFGHAN NATIONAL SECURITY FORCES:

                   RESOURCES, STRATEGY, AND TIMETABLE

                      FOR SECURITY LEAD TRANSITION

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 20, 2012




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                                _____



                      U.S. GOVERNMENT PRINTING OFFICE

  75-144                   WASHINGTON : 2013
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
1800-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1671667956756365627e737a663875797b38">[email&#160;protected]</a>  





              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                    ROB WITTMAN, Virginia, Chairman
K. MICHAEL CONAWAY, Texas            JIM COOPER, Tennessee
MO BROOKS, Alabama                   ROBERT ANDREWS, New Jersey
TODD YOUNG, Indiana                  MARK S. CRITZ, Pennsylvania
TOM ROONEY, Florida                  COLLEEN HANABUSA, Hawaii
MIKE COFFMAN, Colorado
             Christopher Bright, Professional Staff Member
                 Paul Lewis, Professional Staff Member
                     Arthur Milikh, Staff Assistant













                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Wednesday, June 20, 2012, Afghan National Security Forces: 
  Resources, Strategy, and Timetable for Security Lead Transition     1

Appendix:

Wednesday, June 20, 2012.........................................    25
                              ----------                              

                        WEDNESDAY, JUNE 20, 2012
AFGHAN NATIONAL SECURITY FORCES: RESOURCES, STRATEGY, AND TIMETABLE FOR 
                        SECURITY LEAD TRANSITION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Andrews, Hon. Robert, a Representative from New Jersey, 
  Subcommittee on Oversight and Investigations...................     2
Wittman, Hon. Rob, a Representative from Virginia, Chairman, 
  Subcommittee on Oversight and Investigations...................     1

                               WITNESSES

Sedney, David S., Deputy Assistant Secretary of Defense for 
  Afghanistan, Pakistan and Central Asia.........................     2
Townsend, MG Stephen, USA, Director, Pakistan/Afghanistan 
  Coordination Cell, The Joint Staff.............................     5

                                APPENDIX

Prepared Statements:

    Sedney, David S..............................................    30
    Townsend, MG Stephen.........................................    35
    Wittman, Hon. Rob............................................    29

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Andrews..................................................    45
    Mr. Conaway..................................................    46

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................    52
    Mr. Critz....................................................    51
    Mr. Wittman..................................................    49
 
AFGHAN NATIONAL SECURITY FORCES: RESOURCES, STRATEGY, AND TIMETABLE FOR 
                        SECURITY LEAD TRANSITION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                          Washington, DC, Wednesday, June 20, 2012.
    The subcommittee met, pursuant to call, at 2:35 p.m. in 
room 2212, Rayburn House Office Building, Hon. Rob Wittman 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM 
       VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mr. Wittman. Today the Oversight and Investigations 
subcommittee convenes the first of a series of hearings related 
to the Afghan National Security Forces.
    At this hearing, we will receive testimony from the 
Department of Defense about the resources and strategy related 
to training the ANSF [Afghan National Security Forces] and the 
timetable for transitioning security lead responsibility from 
U.S. and NATO [North Atlantic Treaty Organization] forces to 
the ANSF. The Department of Defense today is represented by Mr. 
David Sedney, Deputy Assistant Secretary of Defense for 
Afghanistan, Pakistan and Central Asia; and Major General 
Stephen Townsend, Director of the Pakistan-Afghanistan 
Coordination Cell.
    Gentlemen, thank you so much for your participation. Thank 
you for your service to our country. We look forward to your 
testimony on plans for training and equipping the Afghan 
National Security Force, and details about the projected size 
and related rationale of the ANSF in the near and long term.
    Many of us on the committee have just returned from a 
congressional trip to Afghanistan. And during our visit, we 
traveled to several provinces and met with local leaders, 
including the chiefs of police in a number of provinces. We 
also had the opportunity to talk to the military commanders on 
the ground who provided their impressions of the level of 
support that will be needed to create a self-sustaining ANSF.
    It is my hope that our witnesses today can provide further 
context on these important issues. And as an administrative 
note, I recognize that members of other subcommittees will join 
us. And pursuant to the committee's rules, I will recognize 
these members after all O&I Subcommittee members have had an 
opportunity to question the witnesses. And we have with us 
today, in the stead of Mr. Cooper, our ranking member, Mr. 
Andrews.
    And I would like to turn it over to him for any opening 
statement he may have.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 29.]

  STATEMENT OF HON. ROBERT ANDREWS, A REPRESENTATIVE FROM NEW 
      JERSEY, SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

    Mr. Andrews. Thank you, Mr. Chairman. I also appreciate the 
witnesses and their service to our country. And I want the 
record to show that I will never fill Mr. Cooper's shoes in any 
way, shape, or form. I will make sure he tells him that.
    Thank you for calling the hearing. Look, a pivotal aspect 
of our country's strategy in Afghanistan is for the Afghans to 
be able to provide their own security. And a pivotal aspect of 
that goal is the training of the security forces and where that 
all stands.
    No reflection on today's witnesses, but one of the reasons 
why I think it is so timely the chairman called this hearing is 
that, frankly, through two administrations we have had a long 
history of unfounded and inaccurate optimism on these 
questions. And I know that the two witnesses are dedicated to 
telling the facts as they see them.
    I know the committee is dedicated to hearing the facts as 
they are. So, Chairman, thank you for this opportunity, and we 
thank the witnesses for being here.
    Mr. Wittman. Thank you, Mr. Andrews. We appreciate your 
leadership on this issue also.
    At this point, I would like to ask unanimous consent that 
non-subcommittee members, if any, be allowed to participate in 
today's hearing after all subcommittee members have had an 
opportunity to ask questions. Is there an objection? Without 
objection, non-subcommittee members will be recognized at the 
appropriate time for 5 minutes.
    And with that, we will begin with our witnesses, and begin 
with Mr. David Sedney, Deputy Assistant Secretary of Defense 
for Afghanistan, Pakistan and Central Asia. Mr. Sedney, the 
floor is yours.

  STATEMENT OF DAVID S. SEDNEY, DEPUTY ASSISTANT SECRETARY OF 
       DEFENSE FOR AFGHANISTAN, PAKISTAN AND CENTRAL ASIA

    Mr. Sedney. Thank you very much, Mr. Chairman. Thank you, 
ranking member--or acting ranking member. Thank you. Thank you 
for the opportunity to be here today.
    The subject, as the two of you have introduced it, we in 
the Administration believe is exactly on point. The key to 
success in Afghanistan is the success of the Afghan National 
Security Forces over the long term. The United States' 
fundamental objectives--our strategy, our campaign plan in 
Afghanistan--have been consistent since President Obama 
announced them in December of 2009.
    Our goal remains to deny safe havens to Al Qaeda, and to 
deny the Taliban the ability to overthrow the Afghan 
government. Thanks to more than 10 years, and particularly over 
the past 2-plus years, of dedication and sacrifice of our 
forces, our coalition partners and their Afghan partners and 
the Afghan people, we have taken enormous strides toward these 
objectives.
    To that end, U.S., Afghan, and coalition forces continue to 
work to drive down the Taliban-led insurgency in their 
strongholds and to build up the capacity of the Afghan security 
forces and the Afghan government. Our efforts remain on track 
to enable the Afghans themselves to assume the lead for 
security nationwide by the end of 2014.
    As we continue to shift more areas to Afghan security lead 
and, by the end of this September pull out the final 23,000 
surge troops which will return home at that time, that is all 
made possible by the improvements in the Afghan National 
Security Forces. American and coalition forces that remain on 
the ground after September will facilitate the continued 
transition of security to the Afghan National Army and Afghan 
National Police, in accordance with General Allen's campaign 
plan.
    As you said, as I mentioned, the key to this success is the 
increasing capability and confidence of the Afghan security 
forces and to the Afghan people in those security forces. The 
Afghan National Army and Afghan National Police are both on 
schedule to meet their goal for size by or before October, this 
year.
    Additionally, I would point out that the Afghan security 
forces now participate in over 90 percent of all operations in 
Afghanistan, and are in the lead for over 40 percent of these 
missions. And that rate of growth is on an upward trend. As 
General Allen stated to the House and Senate in March, the ANS 
\1\ are better than we thought they were to be--and 
importantly, they are better than they thought that they could 
be.
---------------------------------------------------------------------------
    \1\ Mr. Sedney intended to say ``ANSF'' rather than ``ANS.''
---------------------------------------------------------------------------
    This improved capacity is allowing the Afghan security 
forces to assume the security lead effectively. With the first 
two tranches of transition that are already under way, 50 
percent of the population lives in areas where the Afghan 
security forces are in the lead. That number will climb to 75 
percent with the recently announced tranche three of 
transition, which will begin to be put in place this summer.
    Tranche three contains a number of contested areas; areas 
where the Taliban is active. Tranche three will really test the 
Afghan security forces. This fighting season that is coming 
up--that we are already in this year--will be the most 
significant challenge for the Afghanistan security forces, as 
they are more in the lead than ever before.
    However, the time for this test is now, when we and our 
coalition partners have the forces in theater to ensure their 
success. Certainly the insurgency retains the ability to carry 
out complex attacks. April 15th attacks in Kabul, the recent 
attack on forward operation base Salerno, were sophisticated 
and coordinated. However, I would point out that those attacks 
were largely tactical and operational failures.
    And the response to the attacks, particularly in Kabul, 
highlighted the increasing competence of the Afghan security 
forces. Because in Kabul, the Afghan security forces carried 
out the complete reaction and taking down of the forces that 
had attacked. We have seen two major achievements in the last 6 
weeks that have sent a strong signal to the Afghan people, to 
the Taliban people, and to countries in the region.
    First, the strategic partnership agreement that President 
Obama and President Karzai signed in May. President Obama 
subsequently made a speech to the nation from Afghanistan. That 
showed that the United States and Afghanistan are committed to 
a mutually beneficial relationship, not just until 2014 but 
beyond 2014. That strategic partnership extends for 10 years, 
until 2024.
    Secondly, the Chicago Summit--the NATO Summit in Chicago--
earlier this month was a great success, and demonstrated the 
continued dedication of over 50 NATO and other partner 
countries to supporting stability and security in Afghanistan. 
In Chicago, ISAF [International Security Assistance Force] 
members and partners reaffirmed their commitment to the Lisbon 
timeline to complete transition by the end of 2014, and also 
and very importantly, to continue engagement in Afghanistan 
after 2014.
    As NATO Secretary General Rasmussen put it, ``NATO and our 
ISAF partners will not leave the task undone. We will not let 
Afghanistan slip back into the hands of militants, which the 
vast majority of Afghan people utterly reject. We will finish 
the job to help create a secure Afghanistan, secure for our 
shared security.''
    Again I will repeat, our goal is to ensure that Afghanistan 
is never again a base from which attacks are launched on the 
United States, our allies, and our partners. And in Chicago, 
our partners acknowledged once again that shared goal. I would 
also point to two recent U.S.-Afghan bilateral arrangements: 
the detentions and special operations memorandums of 
understanding.
    They preceded the strategic partnership agreement, and 
those two MOUs [Memorandums of Understanding] are critical to 
demonstrating U.S. commitment to Afghanistan's sovereignty, and 
they rely for their execution on the increased capacity of the 
Afghan National Security Forces.
    Now while I have stressed the successes and the progress, I 
also want to very directly acknowledge that we have serious 
challenges still ahead. Limited governance capacity and 
corruption continue to plague Afghanistan, and they limit the 
effective governance that will be necessary for full 
transition.
    Additionally, as stated by General Allen in his testimony 
and repeatedly in testimony by other witnesses from this 
Administration and others, the Taliban-led insurgency continues 
to operate from safe havens in Pakistan. And although we have 
had indisputable successes against Al Qaeda, as I am sure all 
of you are aware, we continue to press the Pakistanis on the 
need for them to take action against the Taliban and affiliated 
groups which operate out of Pakistan and carry out attacks on 
coalition and Afghan forces in Afghanistan.
    We will continue to work with our allies and partners, in 
the Pakistani and Afghan governments, and our international 
partners to address these issues. We will keep Congress 
informed of our progress. As I close, I would like to thank the 
House Armed Services Committee and this subcommittee for the 
opportunity to appear before you today, for your continued 
support for our men and women in uniform, and for your support 
to the Afghan security forces.
    Because without your commitment to funding and resourcing 
the Afghan forces we could not have achieved the progress of 
the last 3 years. I look forward to your questions, look 
forward to your insights. Thank you.
    [The prepared statement of Mr. Sedney can be found in the 
Appendix on page 30.]
    Mr. Wittman. Thank you, Mr. Sedney. Thank you so much for 
your testimony.
    We now look forward to the testimony of Major General 
Stephen Townsend, Director of the Pakistan-Afghanistan 
Coordination Cell.

   STATEMENT OF MG STEPHEN TOWNSEND, USA, DIRECTOR, PAKISTAN/
         AFGHANISTAN COORDINATION CELL, THE JOINT STAFF

    General Townsend. Chairman Wittman, Congressman Andrews, 
members of the subcommittee thanks for this opportunity to 
appear before you today and discuss how the Afghan National 
Security Forces are doing. Our bottom line up front is that we 
are on track to achieve our Nation's strategic objectives in 
Afghanistan.
    A sustainable and sufficient ANSF, and transition, are two 
linchpins of our strategy. And to echo what Mr. Sedney said, 
the ANSF continue to grow and improve, and remain on track to 
assume the lead for security by the end of 2014. ISAF remains 
focused on building a capable ANSF of 352,000.That becomes a 
mechanism for defeating the insurgency. The ANSF continue to 
meet or exceed this year's recruiting objectives, with the Army 
and the Air Force expected to meet their combined goal of 
195,000 by the end of this summer. And the police reaching 
their goal of 157,000 by October.
    To be sure, the ANSF continues to face challenges such as 
literacy, attrition, and shortages of noncommissioned officers. 
The NATO training mission and the Afghan ministries provide 
literacy programs to approximately 90,000 ANSF each day. This 
is going to make the ANSF one of the most literate elements of 
Afghan society.
    Attrition continues to be an issue, as well. Although 
attrition will not keep the ANSF from meeting their manning 
goals, it continues to hamper the long-term development of the 
ANSF. The security ministries continue to implement policies to 
combat attrition, and they are working. Attrition has gone down 
over the last several months .
    One example is, the MOD [Ministry of Defense] recently 
approved stricter timelines to drop AWOL [absent without leave] 
personnel from unit rosters. Shortages of NCOs [noncommissioned 
officers], sergeants, continue to affect the development of the 
force as well. The army and police are training and promoting 
from within their ranks to fill these critical positions.
    The ANSF are taking the lead in training their own forces, 
and they are implementing instructor cadre training programs. 
These Afghan instructors are providing more basic and advanced 
skills training at Afghan-led training centers every day. 
Operationally, the ANSF is making steady progress as well. ISAF 
Joint Command currently rates 67 percent of the army units and 
62 percent of the police units.
    And the top two tiers, or categories, of operational 
effectiveness--that is, effective with advisors and independent 
with advisors--from January to April, the percentage of Afghan-
led partnered operations increased from 33 percent to 59 
percent. In some regions, Afghan forces conduct more 
independent operations than they do partnered operations.
    The ANA [Afghan National Army] special operations forces 
also continue to grow and increase their operational 
proficiency. For example, ANA SOF [Special Operations Forces]-
led operations increased from 44 percent in January to 54 
percent in April. As we plan for a responsible drawdown of our 
forces in Afghanistan, the ANSF will continue to face 
challenges on the battlefield. But they won't face these 
challenges alone.
    To support the ANSF during transition, ISAF is shifting to 
a security force assistance model. That puts Afghans in a lead 
combat role and has ISAF forces increasingly assuming a train, 
advise, and assist role. During this transition period, ISAF 
will still fight alongside our Afghan partners when needed, but 
we will shift into more of a support role as the Afghans move 
to the front.
    ANSF's operational challenges include logistics, army and 
police interoperability and confidence, among others. In my own 
opinion, the ANSF's greatest challenge is one of confidence. 
Our agreement to stand with them beyond 2014 has been a 
tremendous boost to their confidence. The will of their force 
will strengthen as their leadership strengthens and as their 
capabilities improve, and as they continue to move more and 
more to the front.
    Circling back to the bottom line, we assess that our 
security strategy, our security transition, is on track to have 
a sufficient and sustainable ANSF assume full responsibility 
for security across Afghanistan by the end of 2014. Finally, 
thank you all for the work that you do on behalf of our service 
men and women, as well as your efforts to ensure their 
protection and safety as they complete their mission in 
Afghanistan.
    I stand ready to answer your questions.
    [The prepared statement of General Townsend can be found in 
the Appendix on page 35.]
    Mr. Wittman. Thank you, Major General Townsend. Appreciate 
your testimony, as well as Mr. Sedney.
    We will begin now with questioning. And I want to begin 
with Mr. Sedney to get your perspective. You had spoken about 
transition, that we are in tranche two now. When we were 
downrange, we spoke with General Allen just last week, 
Ambassador Crocker, about some concern about the more difficult 
areas in transition being pushed to the end, to tranche five.
    I know now there is a repositioning to put some of the more 
difficult areas into tranche three. Let me ask you this. If you 
do not achieve the desired results in this transition--whether 
it is tranche three, four, or five--are there contingency 
plans? We know 2014 is the complete turnover. Are there 
contingency plans, are there alternative schedules if goals 
aren't met, if transition doesn't take place smoothly in some 
of these more challenging areas within Afghanistan?
    Can you give us your perspective on what you see as those 
contingency scenarios and alternate schedules?
    Mr. Sedney. Thank you very much, Congressman. And thank you 
and you and your colleagues for making the trip out to 
Afghanistan to speak directly with our commanders and our 
troops and, of course, our Afghan partners.
    In terms of plans for how we are going to evaluate the 
success of transition and how we might adjust the existing 
campaign plan, the process that we have in place is one where 
at the end of this fighting season--and including after the 
remainder of U.S. surge forces return home at the end of 
September--General Allen and his staff will review what 
happened over this year.
    As I said in my testimony and as I am sure you heard our 
there, this is going to be a testing summer for the Afghan 
security forces. They are going to be in the lead as never 
before. So we are going to have to evaluate them. At the same 
time, beginning in just a few weeks, the third tranche of 
transition will be started, including in some very difficult 
contested areas.
    So General Allen will have had the summer's experience to 
evaluate that. He will do that, then he will submit a report up 
the chain of command evaluating what he believes are what the 
future requirements are. So rather than developing a whole list 
of contingency plans, what we are focusing on is making what we 
are doing now successful. And we have a review process in 
place, whereby the commander in the field will evaluate if 
there are changes that are necessary; he will recommend those 
up the chain of command through General Mattis at CENTCOM [U.S. 
Central Command] and then to the Secretary and to the 
President. So that is the process that we are looking for. I 
will say, and you have been in Afghanistan more recently than I 
have, but I will be able to--that won't be the case in about 5 
days because I will be back out there myself and will be 
looking at that.
    As General Allen said in his testimony, and as you may have 
heard when you were out there, we are finding that the Afghans, 
rather than doing less well than we expected, are often doing 
better than we expect. There are some cases where they aren't 
doing as well as either we expect, or they, and that is where 
we are able to give them the additional help that they need.
    But we are also, as I said, seeing places where they are 
doing better than expected. We have, actually, some very 
aggressive and I think it is a very positive thing, Afghan 
commanders who are pushing to do even more than sometimes we 
think they are ready to. That is a judgment that our commanders 
out in the field have to make every day about whether people 
are ready to do things.
    If you stretch too far, that can be dangerous. But if you 
don't stretch far enough, then you are not going to achieve 
your goal. So we do have this review process in place for this 
year. I would expect we would have the same process in place.
    I would also add that in terms of the issue of the 
composition of the Afghan security forces, Secretary Panetta, 
in his formal meetings with the Afghan interior defense 
ministers in April for a group that is called the Security 
Consultative Forum--where we meet and discuss the strategic 
level issues relating to the Afghan security forces--they 
agreed on a 6-month review process to examine the performance 
of the Afghan security forces, to evaluate what additional 
inputs might be needed, what changes might be needed.
    So again, we have these review processes in place that we 
take very seriously, and look forward to being able to come 
back and brief you and your colleagues as these review 
processes are completed.
    Mr. Wittman. Thank you, Mr. Sedney.
    Major General Townsend, we know right now the majority of 
efforts there are along the lines of village stabilization 
operations. And that most of that is being executed by our 
special operators. As we begin to draw down forces to the 
68,000 by the end of 2013, the question is, is that transition 
going to take place in a way to make sure that support elements 
are in place to make sure our special operators continue to 
have what they need as they get placed more and more out on an 
island to pursue these operations?
    The concern is, if it isn't strategic in the way the 
drawdown is structured that those special operators may not 
have what they need--whether it is air support, whether it is 
other logistical support--and they find themselves on an 
island. Can you speak to that issue? And is the planning taking 
into account strategically where we will be in continuing to 
pursue this fight, especially along the lines of the village 
stabilization operations with our special operators and ANSF 
forces in these areas?
    General Townsend. Yes, sir. As you might expect, we are 
planning for various contingencies through now until the 2014 
and even beyond 2014 what we call our ``enduring presence'' 
might look like. And none of those plans have really firmed up 
yet.
    But the VSO, Village Stability Operations, and Afghan local 
police initiative that you mentioned, is a very high priority 
for COMISAF [Commander of the International Security Assistance 
Forces]. And so, absolutely, I can assure you that the planning 
will allow for the proper support that those hearty little 
bands of special operations folks, and also general purpose 
forces out on the frontier where those sites are at, the 
support they need will be there for them.
    VSO-ALP [Village Stability Operations-Afghan Local Police] 
is something that is part of our enduring presence planning. So 
we envision that program continuing after 2014. So even in our 
enduring presence footprint, there will be VSO-ALP support and 
support to those forces that are providing it.
    Mr. Wittman. Thank you.
    And with that, I will move to Mr. Andrews.
    Mr. Andrews. Thank you. I thank the witnesses for your 
testimony.
    Mr. Secretary, you indicated that Afghan security forces 
participate in 90 percent of operations and are in the lead in 
40 percent. What is the difference between being in the lead 
and participating?
    Mr. Sedney. I am going to call a little bit on my 
uniformed----
    Mr. Andrews. [Off mike.].
    Mr. Sedney [continuing]. Uniformed colleague here because 
he is a lot more accustomed to describing operations than I 
would say. But I think, to me, one of the key things that I 
look at when I look at reports from my uniformed colleagues on 
this, when the issue comes to lead, are they lead in planning 
the operation.
    Not just are they lead in carrying it out, but do they have 
the capacity to plan, do they execute according to plan? And 
then afterwards, do they have the capability to do an after-
action review to see what went wrong, what went right in order 
to do it the next time better.
    But I am going to defer a little bit on this to you, Steve.
    Mr. Andrews. General, what would that look like?
    General Townsend. I will use a very kind of a simple 
analogy of a patrol. A patrol gets a mission and they meet 
together. The first thing they do is they plan that mission. 
When the Afghans are in the lead, they are planning the 
mission. We are kind of helping and advising.
    Just a short while ago, almost every mission in Afghanistan 
would have been planned by an American, sergeant or officer. 
When that patrol rolls out the gate, who is leading that 
patrol? Who is actually in front, and who is in the command 
position? A short while ago that would have been an American.
    Now, increasingly--and actually the latest reports are more 
than 40 percent--they are in the mid- to high-50 range. Half of 
those patrols are now led by an Afghan leader with an American 
leader tagging along behind watching the Afghan leader control 
the operation.
    When you get to the objective, the force that is on the 
patrol, what is the predominance of the force? At RC-East 
[Regional Command-East], in a recent report, said 61 percent of 
the troops on a mission these days in RC-East are Afghans. That 
was not the case when I was there a little over a year ago in 
RC-East. And then on the objective, who is actually giving the 
orders----
    Mr. Andrews. Right.
    General Townsend [continuing]. And who is controlling the 
soldiers as they move about the objective. Increasingly, in 
more than half the cases now that is an Afghan. So that is sort 
of the difference between participating and leading.
    Mr. Andrews. Very helpful. That is very helpful. Thank you.
    Mr. Sedney. Can I just add one thing, sir?
    Mr. Andrews. Well, I just----
    Mr. Sedney. Okay.
    Mr. Andrews [continuing]. Want to jump to the next 
question. What is the difference between a unit that is 
independent with an advisor and effective with an advisor? What 
is the difference?
    General Townsend. Effective with an advisor is really a 
matter of degree. If you are an effective with an advisor, you 
are getting a lot of advice. And if you are independent with an 
advisor, you are getting much less advice. But the big 
difference is, who is generating the operations?
    Mr. Andrews. Gotcha.
    General Townsend. If an Afghan commander is saying, ``Hey, 
we need to do an operation tomorrow,'' and giving orders to an 
Afghan subcommander, then they are generating the whole idea of 
the operation. And so that is really the difference between 
being independent----
    Mr. Andrews. This is not a trick question, but is it 
possible for an Afghan unit to be not in the lead, but be 
independent with an advisor? Or is that oxymoronic?
    General Townsend. Okay, I haven't really thought about this 
particular question. To be not in lead----
    Mr. Andrews. Right. Well, I will put it to you this way. If 
an Afghan unit is in the lead of an operation, are they by 
definition independent? Or are they just effective?
    General Townsend. No, they may just be effective.
    Mr. Andrews. Gotcha. Are there any Afghan units that are in 
the lead that don't hit the top two categories?
    General Townsend. Yes, there are actually.
    Mr. Andrews. Are you concerned that American troops might 
be under the command of a commander who is in an outfit that 
isn't at least effective?
    General Townsend. Sir, they are not. American troops are 
not under the command of the Afghan leader there. They are 
partnered and they are on the battlefield together, but there 
is an American leader there in charge of American troops.
    Mr. Andrews. All right. Do we have any data on the 
attrition rates among the Afghan security forces? Are they up, 
are they down?
    Mr. Sedney. Yes, we do have data, which we will be happy to 
provide the committee. We have some nice graphs. The answer is 
that the attrition is down in both the Afghan National Army and 
Afghan National Police over the last 6 months.
    Happy to pass these graphs up to you if you would like.
    [The information referred to can be found in the Appendix 
on page 45.]
    Mr. Andrews. Sure. Unanimous consent to put them in a 
record, if that is----
    Mr. Sedney. Okay, we can do that.
    Mr. Andrews. What is the bottom line, though?
    Mr. Sedney. Bottom line in----
    Mr. Andrews. What was the attrition rate a year ago? What 
is it now?
    Mr. Sedney. In the case of the Afghan National Police, a 
year ago attrition was ranging from 1.4 percent to 4.6 percent. 
In the last 6 months it has ranged from 3.4 percent to, in the 
most recent period, 0.5 percent.
    Mr. Andrews. What is the main reason for attriting? Why do 
people leave?
    Mr. Sedney. I am going to defer a little bit of this to my 
colleague here. But a lot of the reasons--attrition are people 
who have entered and leave before their contracts are up; the 
most common reason, is family reasons. People have family 
problems at home, and they feel they can't solve them. So 
going----
    Mr. Andrews. My time is about to expire. One thing, if you 
have it, I would be interested in the KIA [killed in action] 
rates for Afghan forces. I hope it is zero, I mean God forbid. 
But I mean, what is happening with their KIA rates? Are they 
going up or down, or staying the same?
    General Townsend. I don't know which way they are trending, 
but I do know that their army loses, they have twice the 
casualty rate that we do. And their police have about four 
times the casualty rate that we do. So they are in this thing.
    Mr. Andrews. I offer no glee with that statistic, by the 
way. I just want to know what it was. I am sure you don't 
either.
    Thank you. This is very, very helpful. I appreciate your 
testimony. Thank you.
    Mr. Wittman. Thank you, Mr. Andrews.
    We will go to Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. One of the things, 
when General Allen was making his presentation just the other 
day he just talked about tranche one, tranche two, tranche 
three. And what I asked is that we need a better way of 
measuring progress across that continuum of ineffective all the 
way to independent with advisor, whatever your scales are 
either on a district-by-district basis or some sort of way to 
communicate progress in the transition.
    In other words, Mr. Sedney, you said that after the first 
two that 50 percent of the population lives under the control 
of the Afghans. Which would say that we are done with 
transition in both tranche one and tranche two. And I am not 
sure that was accurate.
    And maybe I just misunderstood it. But we need some of the 
metrics that you are using to show yourselves progress. We need 
those, too. And so any way you can be helpful in that regard, 
we are open to that. Rob and I were over there last week, and 
we went down to Panjwaii District.
    And we had a presentation by the Afghan commander there on 
operations over the next several months in his AO [area of 
operations] that was as professional as anything we would get 
anywhere else by folks in our uniforms. This guy was very 
impressive. Maybe it was just the interpreter knew what to do 
and he might have not been very impressive at all, but I 
suspect he was being interpreted correctly.
    But I came out of that meeting very impressed with this 
guy, and the fact that he is going to be in charge here pretty 
soon. Major General Townsend, the ALP [Afghan Local Police]--
the numbers we are shown for post-2014 in terms of the numbers 
of security forces versus the money that will be needed year in 
and year out to fund those--the money to pay the ALP, is in the 
estimate of what the international community will have to come 
up with each year to fund the security forces.
    But the force number itself, the 30,000 ALP guys, are not 
in the force number itself. My concern is, hey, I am sold on 
the project--on what we are doing with ALPs--because the 
Taliban's sold on it. They are threatening them. They are 
coming after them because they see them as a threat to their 
ability to operate within these villages.
    Is there someone in the Ministry of Interior who is going 
to take ownership of the ALP and be that champion that is 
necessary to prolong this? I know we like it, but there has got 
to be somebody in the Afghan system that is going to share that 
idea with us. Are you aware, Mr. Sedney, or either one of you?
    General Townsend. Sure. First, I would like to answer just 
the thing you said about transition at the start. Those 
measurements are there. They are measurements to all the stages 
of transition. And to answer your sort of unasked question 
about, you know, has any place completed it. No, none of the 
tranche one or tranche two districts, provinces, or 
municipalities have completed all four stages of transition 
yet.
    Some of them are in stage three, and some of them, a 
couple, have entered stage four. But none of them have 
completed transition just yet.
    Mr. Conaway. Well, having that information would be 
helpful.
    [The information referred to can be found in the Appendix 
on page 46.]
    General Townsend. Sure. Then on your question about the ALP 
versus the troop numbers, and is anybody going to take charge 
of that. First, the troop numbers, you are correct, are not in 
the ANSF end-strength, by design. The money, however, is. And 
what we anticipate in funding in the outyears, international 
contributions, the MOI, the Ministry of Interior, already owns 
the VSO-ALP program.
    And, in fact, there is a chain of command that runs through 
the police chain of command. And those ALP forces are 
responsible to the district chief of police. So there already 
is a funding, a training funding and equipping line, that comes 
down through the Ministry of Interior to the ALP.
    Mr. Conaway. I guess the question then is, between the two 
of you are y'all confident that the Afghans sufficiently value 
this program that they won't siphon off that funding and go 
somewhere else with it after transition.
    Mr. Sedney. Well, I think there are two questions there. 
Are we confident they won't siphon off the funding. Yes, we are 
confident of that because we control that funding. So that 
funding right now does not go to them.
    Mr. Conaway. No, no, no. I mean post-2014.
    Mr. Sedney. But post-2014, the ALP program has been 
controversial in Afghanistan. There is ownership for the 
Ministry of Interior. As the ALP-VSO program has proven its 
effectiveness, we are getting more and more support from the 
top levels there.
    As that continues over the next 2 years I think we are very 
much on track for that. But it is certainly no secret that a 
number of high-ranking Afghans, people in their parliament, 
have been critical in the past of the ALP program. To get that 
buy-in, we are going to need at least another year or two of 
success to build that support.
    Bureaucratically, as my colleague said, yes, in the 
Ministry of Interior there is a structure that governs the ALP. 
Right now, that structure is very--we have a lot of mentors in 
that process. So we are building that capacity and we think we 
are on track to complete by 2014. But it is one of things that 
we are going to be having in that review process.
    Mr. Conaway. Thank you, gentlemen.
    Mr. Wittman. Thank you, Mr. Conaway.
    We will now go to Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman.
    General, you mentioned earlier something that I had heard 
last year and the year before. The concern for attrition and 
the lack of NCOs. And if you could, now the Secretary mentioned 
that the attrition had gone from 4.4 percent--in a range of, we 
will say, around 4.5 percent a year ago, I believe--to 3.4 
percent a month ago; ranging down to half a percent.
    And just for comparison purposes, what is the U.S. 
military? What is our attrition rate?
    General Townsend. Congressman, I don't know the answer to 
that question. I can tell you this about the Afghanistan 
attrition. For the last--we have got a goal of 1.4 percent per 
month. And they have--the Afghan army is--about at that goal 
now. It has been declining, their attrition has been declining, 
for the last several months.
    The police are actually at that goal. And, in fact, I think 
they are slightly below the goal. They are meeting the goal, 
exceeding the goal now. The army is not quite there yet. But it 
has been on a steady slope of improvement for the last several 
months.
    Mr. Critz. Well, good, good. And that is because the police 
force was what I was going to ask about next, as well. But can 
you explain when you say that there is an issue with NCOs? What 
exactly do you mean?
    General Townsend. First of all, there is just a shortage. 
About 17,000 NCOs short in the army, and about 11,000 NCOs 
short in the police.
    Mr. Critz. So if 17,000--how many NCOs do they have and how 
many does that mean that they need?
    General Townsend. That is a good question. I don't know. I 
will ask my colleagues here.
    Mr. Critz. Well, 17,000 short of some number.
    General Townsend. Yes, yes. I don't know that off the top 
of my head.
    Mr. Critz. Okay.
    General Townsend. So with the NCOs, there are two real 
issues here. One is a cultural one. They have not been an army 
that had a professional noncommissioned officer core 
previously. So, you know, we are trying to, one, train the army 
and the senior leadership of the army to value noncommissioned 
officers.
    So that is a work in--that is probably the broad thing that 
is going on. Then next is actually filling their ranks. And 
then they have standards for the noncommissioned officers. They 
have to be able to read, so that is one shortfall there that we 
are working on. So as these guys get recognized in the ranks as 
a high-performing soldier they are identified to be in 
noncommissioned officers school.
    They had to go to read, and they have to go to an NCO corps 
and pass that before they can be an NCO. So it is a work in 
progress, filling these slots.
    Mr. Critz. Well, the reason I ask is, like I said, I had 
heard that issue in years past. I was in Afghanistan 2 years 
ago, I was in Afghanistan last year. And I am curious, with the 
growing amount of the force, has it remained a constant 
percentage of lack of NCOs? Or is it a number that has 
increased exponentially, or are we seeing a sharp decline in 
the--I mean, we all know that you have got to have those 
sergeants on the ground because you are going to have some 
lack, or approaching chaos at some points, if you don't have a 
amount of people you need.
    And that is, as we transition here, I am trying to find out 
will we have the NCOs needed to support this 352,000 level? Or 
as we discussed at the Chicago Summit in May, are we looking 
more at a 230,000 number? And where are we going with this?
    General Townsend. Well, we will have the NCOs we need 
because that is a focused area that we are trying to improve. 
So we will look at the data and we will try to provide you an 
answer before the hearing is over. If not, we will provide it 
for the record as to the general population of NCOs.
    My guess is it probably remained pretty constant, slightly 
improving. Because we have been growing the force.
    Mr. Critz. Yes.
    General Townsend. So it is hard to actually, you know, meet 
the objective when you are adding requirements, which we have 
been doing. But we will have the NCOs we need to man and lead 
the 352,000 force.
    I will let Mr. Sedney address where it goes from there.
    Mr. Sedney. Just two additional points, Congressman. The 
first is, as Steve stated, the reason they don't have enough 
NCOs is because just as on our forces, in order to be a really 
effective NCO you have to have 10 or 15 years of experience. 
And this is an army that generally has less than five.
    And so they are going to grow into that. Secondly, on 
filling the NCOs through the process that General Townsend 
described. Because we will have reached the numerical goals, 
the 352,000, by the end of this summer, that is going to give 
the Afghan security forces 2 years--from October 2012 through 
the end of 2014--to refine their quality, to build this NCO 
course, to build their junior- and middle-level officer corps.
    Will the process be finished? No. We, and others, will have 
to remain to train, advise, and assist and after that. But they 
will have the beginnings of what they need in terms of numbers 
if not in quality by 2014, and the next 2 years is when we will 
see the greatest progress in the NCO and junior officers.
    Mr. Critz. Thank you.
    Mr. Wittman. Thank you, Mr. Critz.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. And General Townsend 
and Secretary Sedney, thanks so much for your service to our 
country.
    A couple points. First of all, I have a concern, I think, 
in looking back at U.S. military history and our involvement in 
South Vietnam. One of the issues, I think, that complicated the 
efforts of the army of South Vietnam was that we gave them our 
doctrine. And it was of high mobility, and that was difficult 
to support after we left Vietnam.
    And I was in Afghanistan in November. And they took me out 
to see a training exercise. And it was for artillery. And it 
was with towed artillery. And having served in the United 
States Army in mechanized infantry, been an infantry officer in 
the United States Marine Corps, I am thinking why on earth have 
we procured for them towed artillery instead of mortars.
    And when I pressed the ISAF representative, he said, 
``Well, sir, you know, Karzai had insisted on, you know, 
heavier, more expensive--he wanted F-16s [Fighting Falcon 
fighter jets] and he wanted this and he wanted that. And so 
towed artillery was kind of the compromise.''
    And I am wondering how many areas like that, that where we 
have given them weapons and tactics that don't fit their--that 
aren't realistic as to their capability to maintain that after 
we are gone. And and General Townsend, I wondered if you could 
reflect on that.
    General Townsend. Yes, sir. I have actually seen that same 
towed artillery. I would point out that the U.S. Army and the 
U.S. Marine Corps today have a lot of towed artillery. And the 
Afghans have had towed artillery for decades. So towed 
artillery is nothing new, and there is nothing out of character 
for the Afghan army of the past or the present.
    They do have mortars, as well. They have light mortars and 
medium-caliber mortars, much like we do. So they have, I think, 
indirect fire systems that they can have high mobility with. 
And then they have some that are less mobile. But I have seen 
them attach those, tow those E-30 howitzers behind their----
    Mr. Coffman. I want to remind you this is at U.S. 
taxpayers' expense. And mortars don't require all of the 
support elements that towed artillery does. And so you and I 
obviously differ on that. Let me ask you about my concern about 
the culture of corruption in Afghan security forces, which is 
stunning.
    I pressed the Oversight and Investigations Committee, under 
Darrell Issa, to conduct an investigation into the conduct of 
Afghan security forces and the lack of oversight at the Dawood 
military hospital where, in part, $42 million of U.S. military 
aid has been missing, unaccounted for. Where the general 
officer in charge of that hospital was merely transferred, was 
never relieved.
    Where Afghan police and Afghan soldiers were dying in the 
hospital from malnutrition and from a lack of medical care 
because the families couldn't come up with the necessary 
bribes. Certainly it speaks to a lack of oversight for ISAF 
personnel, the monitors. But also it speaks to not just the 
culture of corruption, but also just the fact that to what 
extent have we formed a military organization that--I mean, how 
capable are they when they would allow this to occur?
    And so I am wondering if you all could reflect on that. Who 
wants to start?
    Mr. Sedney. Maybe if I could start, Representative Coffman.
    Mr. Coffman. Sure.
    Mr. Sedney. First of all, thank you for your concern and 
interest in this area. The situation you mentioned at the 
military hospital is one that as we became aware of it we began 
investigating and began working with the Afghans to take 
corrective action. There are currently investigations and 
corrective action under way with that hospital.
    Let me just go back to the words you used--``a culture of 
corruption.'' There is, to be frank, not just hundreds but 
thousands of years of history in Afghanistan's surrounding 
regions where corruption has been part of the fabric of life.
    It is not something that the Afghan people, however, want. 
It is not something that the majority of the Afghan military 
officers and the leaders of the Afghan military want 
themselves; from the ministers on down, I have seen a lot of 
both leaders at the top, leaders in the middle, and ordinary 
soldiers who are committed to not allowing corruption to 
destroy the structures that the Afghans need and that we are 
financing.
    But yes, there is corruption. As I mention in my prepared 
statement, corruption continues to be a problem. We have to 
work with the Afghans to give them the capability to get rid of 
that corruption. That is a challenge because not only do you 
need to have the laws in place, you have to have the effective 
structures in place, you have to have a judicial system, 
prosecutors, courts, a system of incarceration.
    All of these things the Afghans are building, or in some 
cases rebuilding. So it is a huge challenge. But while 
recognizing that corruption is a problem, I would not agree 
that it is endemic to the point where our investments are not 
going to pay off.
    We have some really good partners in the Afghans. We have 
some problematic ones. We have some ones who are corrupt, and 
we need to work with the Afghans to get rid of those. But I 
appreciate very much the point you are making.
    The things that happened in that hospital are the kind of 
things that should never have happened to any human being 
anywhere. And we are working with the Afghans to correct them.
    Mr. Coffman. Thank you, Mr. Chairman. Last point, I am just 
concerned that that issue at the hospital is something that 
very well could be representative throughout the Afghan 
security forces. And I think we in Congress certainly need to 
know--to get down to the bottom of it.
    Thank you so much. I yield back.
    Mr. Wittman. Thank you, Mr. Coffman.
    We will move to Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman, for allowing me as a 
nonmember of this subcommittee to ask questions today. I 
appreciate it.
    And greetings, gentlemen. Mr. Sedney, can you characterize 
for us the evolution of the Afghan Security Forces readiness 
over the last decade? And basically tell me when did they start 
turning the corner to become a force to be reckoned with in 
Afghanistan?
    Mr. Sedney. I can. I actually was on the ground in 
Afghanistan, deputy chief of mission, at our embassy on May 1, 
2002, when the first U.S. special forces arrived to begin 
training the Afghan army a little over 10 years ago. From that 
very, very, I will have to say, discouraging start--when we had 
not enough money, not enough trainers, not enough trainees in 
windowless, bombed-out buildings--to what we have today, we 
have made incredible progress.
    I would also say that for too long the effort in 
Afghanistan was underresourced both in terms of money, but also 
in terms of the level of training and support that we were able 
to give. The former chairman of the joint chiefs of staff, 
Admiral Mullen, described that very graphically when he said--
--
    Mr. Johnson. But you don't have to go----
    Mr. Sedney [continuing]. ``In Afghanistan, we just do what 
we can.''
    Mr. Johnson. Yes, I don't want you to go too far----
    Mr. Sedney. But the turning point, I would say really, was 
about 3 years ago, following the strategic review by President 
Obama and members of this Administration, which recognized what 
we had not been doing in Afghanistan. Where we put additional 
resources, both personnel and money, and we really began to 
build the Afghan security forces to a size and capability that 
they are now showing.
    Mr. Johnson. All right.
    Mr. Sedney. We made the strategic decision, and the impacts 
we are seeing today.
    Mr. Johnson. And let me interrupt you because I got a few 
other questions. I am sorry, I would love to listen. So how 
many Taliban are we fighting now in Afghanistan?
    Mr. Sedney. There are estimates from the intelligence 
community, and I will defer to them on that, but I would say it 
is a very hard figure to come up with how many. Because many of 
the people----
    Mr. Johnson. [Off mike.].
    Mr. Sedney [continuing]. Who fight with the Taliban are 
part-time Taliban. There are people who fight just for a day, 
and there are permanent fighters.
    Mr. Johnson. I understand.
    Mr. Sedney. There are Taliban in Afghanistan, there are 
Taliban in----
    Mr. Johnson. Well, I would include all of those part-
timers.
    Mr. Sedney. And Taliban in Pakistan.
    Mr. Johnson. In fact, I think probably most of them would 
be part-timers. But approximately how many, 20,000?
    Mr. Sedney. Again, deferring to the intelligence community, 
the last estimate that I recall seeing that was releasable 
publicly was 15,000 to 20,000. I don't know if you have a 
better or a different figure, Steve.
    General Townsend. No, same figure.
    Mr. Johnson. Okay. Now, the commitment to withdrawing our 
forces by the end of 2014, does that include special operations 
forces?
    Mr. Sedney. We have committed to drawing down our forces by 
the end of 2014, and ending a lead combat role. But we have 
committed to continuing a presence in Afghanistan after 2014. 
In the strategic partnership agreement that we signed with 
Afghanistan last month, we agreed to begin negotiations on a 
bilateral security agreement which will set the parameters for 
what that force is, including the participation of special 
forces after 2014.
    So we are about to begin those negotiations to come up with 
how many special forces there will be in Afghanistan after 
2014.
    Mr. Johnson. All right, thank you. We are talking about 
230,000 Afghan National Security Forces by 2017. We would be 
drawing down about 120,000 from the force at its maximum 
height. That is going to produce 120,000 jobless individuals 
who understand how to fight. And what do we do with those?
    And also, 230,000 on 20,000. How do we get to that 230,000 
manpower figure for 2017?
    Mr. Sedney. That was exactly one of the subjects that 
Secretary Panetta discussed with the Afghan minister of 
defense, Minister Wardak, and Minister of Interior Mohammadi in 
their security consultative forum in April. And they agreed to 
have a regular 6-month review of where the Afghan security 
forces stand and what our future plans are--and the security 
situation in Afghanistan--to see what pace that would allow for 
the drawdown of Afghan security forces to a long-term, 
sustainable level.
    And the goal of something in the neighborhood of 230,000 by 
2017 is one we broadly agreed to. But the actual pace--and the 
character, the way we get there is something we will be doing 
in these 6-month reviews. In terms of what happens to those who 
might be demobilized, there is a certain level of natural 
attrition.
    Afghan security forces, army, and police sign on for 3-, 4-
, and 5-year contracts. And a lot of them leave--30 percent to 
40 percent of them leave--at the end of their contracts. That 
is normal in forces. So there is a certain level of normal 
reduction in forces.
    There is the possibility of such things as a reserve force. 
And we have had experience in Afghanistan----
    Mr. Johnson. Who will pay?
    Mr. Sedney. Pardon?
    Mr. Johnson. Who would pay for those--well, I guess--yes.
    Mr. Sedney. In terms of payment, we have worked on a future 
plan of funding for Afghanistan that would come from the United 
States, would come from our international partners but more and 
more from Afghanistan itself--with a goal of Afghanistan paying 
for its own security forces by the year 2024.
    Mr. Johnson. And how did we arrive at the 230,000 mark for 
2017? And is that still a reasonable guestimate of the number 
of Afghan security forces on the ground at that time, given the 
fact there are 20,000 Taliban?
    Mr. Sedney. Well, that figure certainly depends on the 
degrading of the Taliban. As I said, our campaign plan has been 
to degrade the Taliban, push the Taliban down, build up the 
Afghan security forces. And in our reviews, we are going to 
check and see whether that is actually happening.
    But a much-diminished Taliban, a much less effective 
Taliban, will require less forces. And that is what that 
calculation is based on. But we are going to be looking at it 
every 6 months to see if, in fact, that is happening.
    Mr. Johnson. Thank you.
    Yield back.
    Mr. Wittman. Thank you, Mr. Johnson. Thank you. We are 
going to start with the second round of questioning. There is 
some interest in panel members for us to do that.
    General Townsend, I will follow up on Mr. Johnson's 
question. And that is, looking at the underlying assumptions on 
where we are going, transitioning with ANSF--as we spoke of 
352,000 force structure by the end of 2012, and then 
transitioning to 230,000 by the end of 2017--I guess my 
question is, what are the assumptions and analysis that went 
into that to determine that that was a proper force structure 
at that time?
    How does that coincide with the coincidence of a drawdown 
of American troops or ISAF troops during that time period? If 
you can just lay out where the thought process has gone, where 
it has been, where we are today with how we came to that number 
of 230,000.
    I know there is obviously a resource element associated 
with that, but also a strategic element associated with that. 
So I would like to get your reflection on that.
    General Townsend. First of all, the 352,000 was the result 
of a lot of analysis, to include wargaming and that kind of 
thing, to allow us to defeat--allow the ANSF to defeat--the 
Taliban. So that is how we get to 352,000. Then there has been 
a decision here in our Government to sustain that through 2015, 
as you know.
    And that is to get them through a year or more after our 
drawdown, and through elections. Some sensitive timeframes that 
will happen in the future there. So then how do you get to some 
number in the future? And why 230,000? Actually, ISAF and NTM-A 
[National Training Mission-Afghanistan] ran a number of 
planning excursions and 230,000 is just one of them.
    Quite honestly, it is one that we would probably pick for 
ourselves that is a smaller force that is pretty well equipped 
and capable. There were other courses of action, some larger 
with less capability. To have more troops, you would have to 
have, you know, fewer trucks and helicopters and things like 
that.
    So the approximately 230,000 course of action is one that 
we agreed to with the Afghans and our international partners. 
And as you said, there is a resource--you know, that is the 
$4.1 billion course of action. But these 6-month reviews that 
Mr. Sedney talked about are every 6 months we are going to 
reevaluate.
    If that still makes sense to us, based on the threat, based 
on what is going on in the world. That Afghans, quite honestly, 
would like to have a larger force and more capability. But the 
world community is going to fund most of that, and so, you 
know, there is a tradeoff there. So I think that as we go down 
the road we will make these 6-month reviews and determine if 
230,000 makes sense, or maybe something else makes sense.
    At some point in the near future here we are going to be 
asking Afghans, okay, give us your course, your preferred 
course of action. Because we have done a lot of that planning, 
and then brought them into it.
    Mr. Wittman. Gotcha.
    Mr. Sedney, in speaking about those 6 months' reviews, I am 
assuming that they will also include ISAF forces. You are 
looking at drawdown, obviously, after 2015 of the ANSF forces. 
But also ISAF forces to the end of 2014, where we will be, 
theoretically, out. Will those 6-month evaluations also 
consider if we haven't reached an acceptable security condition 
with that transition with ISAF force presence after December 
2014?
    Mr. Sedney. Well, the ISAF mandate the NATO heads of state 
have agreed on runs out at the end of 2014. That was the 
decision, made at Lisbon in 2010, that the Afghan security 
forces would be fully in the lead by the end of 2014. In terms 
of moving towards that, very definitely both the size, but more 
importantly the capabilities and the actions that will be 
carried out by the ISAF forces will be considered.
    But as NATO stated in Chicago in defining essentially an 
interim milestone in 2013, that that will be the point at which 
Afghan forces are in the lead, with our support. So there will 
be a year and a half with the Afghan forces in the lead and 
ISAF support. And as they become more and more in the lead, 
they will need less and less ISAF support.
    So we will be evaluating in those 6-month reviews, looking 
primarily at the performance of the Afghan security forces. And 
then if there are areas where the Afghan security forces need 
additional training, advising, assisting--areas where they are 
facing challenges--then the commander in the field, I am sure, 
will recommend methods to do that.
    So yes, it is very much a joint unitary process, looking at 
the entire spectrum in the whole country of Afghanistan.
    Mr. Wittman. Very good. Thank you, Mr. Sedney.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    I understand that President Karzai, by the constitution, 
cannot run again. And that there has not been a credible 
election yet in Afghanistan. And I know in Iraq, under General 
Casey, coalition forces actively supported the independent 
electoral commission of Iraq to make sure that there were 
credible elections.
    What efforts are going to be made next time to make sure--
or to assist the Afghan people to make sure--that there is a 
credible election so that there is a peaceful transition of 
power?
    Mr. Sedney. Thank you very much, Mr. Coffman. You have hit 
on a key issue, which is the successful elections and a 
successful transition of power; something that does not happen 
in that region of the world in general. So it will be an 
historic achievement, and one that the Afghan people are very 
much aware of.
    As you said, President Karzai has pledged publicly, and 
privately to the U.S. Government, that he plans to step down to 
facilitate a transfer of power. In terms of the Department of 
Defense, in terms of the military role, in terms of the role 
that NATO and ISAF will play in both of the last two elections, 
in 2004 and 2009, the actual security protection that was 
available in areas where security had been achieved was led by 
the Afghan forces, particularly in 2009.
    I know it is the judgment of our commanders in the field 
that that is going to be able to be the case in 2014, as well. 
So in terms of the military's role, we will be supporting the 
Afghan security forces to the degree necessary in 2014 for 
those elections in order to carry out the security. The biggest 
challenge, of course, is having a credible and legitimate 
process that results in a transfer of power that the Afghan 
people, the international community, see as legitimate.
    That there is a very active political dialogue in 
Afghanistan already, and our colleagues at the State Department 
and elsewhere are working to that end. But I would say on the 
security side, all the indications are--and Steve, you can 
correct me if I am wrong--we think the Afghan security forces 
are going to be in a very good shape to take the lead and be 
very effective at it in maintaining security during the 
election period.
    Mr. Coffman. Okay. Going forward, President Karzai has come 
down on these night raids which, in terms of my understanding, 
are very effective in terms of capturing key insurgents. Where 
are we at right now with night raids in terms of working with 
the Karzai administration?
    General Townsend. Quite honestly, Congressman, the night 
raids question has pretty much dropped in the pressure. It was 
highly pressurized a few months ago, and now it has dropped 
significantly because we have made this agreement on night 
raids, or special operations, with the government of 
Afghanistan.
    And essentially, we are turning over night raids, at an 
accelerated pace, to them. They have now four of their own 
strike forces that are doing these raids side-by-side. They are 
partnered with Americans, they are enabled by Americans. But 
they are completely in the lead for four of these strike 
forces.
    There are coalition forces that are still operating each 
night. They are partnered also with Afghans. But it is the 
discussion we had earlier about who is in the lead and who is 
participating. But because of that agreement and because of the 
continuing success of these operations, the pressure on that 
topic has dropped significantly with the government of 
Afghanistan.
    Mr. Coffman. In terms of our ability to phase down our 
forces, being able to redeploy them out of Afghanistan 
utilizing Pakistan has become an issue in working with the 
Pakistani government. I wonder if you could reflect on where we 
are right in that negotiation process.
    Mr. Sedney. We have been talking with the Pakistanis about 
reopening the ground lines of communication, and we continue 
those discussions. I think people from my office have been 
involved in those discussions. My deputy was in Islamabad for 
about the last 6 weeks or 7 weeks carrying them out.
    We have not reached agreement yet, but we do find a great 
deal of willingness on the Pakistan side to reopen those. And 
we will report back to the committee when that happens. But 
what I would stress is that primarily due to our partnership 
with a number of other countries to the north of Afghanistan we 
have been able to continue operations without any interruption 
or any hindrance.
    And that the level of supplies for our troops in 
Afghanistan, for our NATO partners' groups in Afghanistan, is 
higher now than it was before those Pakistani ground lines of 
communication were closed. It does cost more money. It is a 
much longer route. It goes through some more difficult areas in 
terms of development of the transportation networks.
    But all that said, due to some tremendous work by our 
colleagues at TRANSCOM [U.S. Transportation Command], at 
CENTCOM [U.S. Central Command], and by a number of civilian 
carriers, we are actually in very good shape and able to move 
forces in and out and equipment in and out of Afghanistan, as 
is necessary.
    However, we don't want to be dependent upon the north any 
more than we want to be dependent on Pakistani. We were very 
much interested in having both routes open. There is both 
healthy competition there and a diversity of supply lines that 
we think is strategically important.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Wittman. Thank you, Mr. Coffman.
    And we will move back to Mr. Johnson.
    Mr. Johnson. Thank you. The $4 billion, Mr. Sedney, that is 
projected to be necessary to support that smaller force of 
230,000 dollars--230,000 ANSF in 2017--that represents about 20 
percent of the current Afghan GDP [gross domestic product]. If 
we assume that Afghanistan will experience economic growth and 
improvements in governance, maintaining that force will, of 
course, require substantial international contributions.
    What steps are being taken to get commitments from 
international donors, and how much progress have we made?
    Mr. Sedney. Thank you, Congressman. Last year, former 
Secretary of Defense Gates, proposed publicly that our ISAF and 
other partners contribute 1 billion euros a year towards the 
future cost of the Afghan security forces. Since that time, we 
have been working very actively with our NATO and other 
partners, including countries in the Middle East and in Asia 
that are also part of the ISAF force.
    And I would say we are very, very close to that goal right 
now. Because some of these discussions are still in diplomatic 
channels, we are not in a position to give you the details now. 
But very soon we will be able to. We have gotten a very 
positive response, and countries are willing to make multiyear 
commitments.
    Obviously, each country has different budget processes, 
different political processes. But the commitments that were 
made in Chicago have been very positive. At the same time, as I 
mentioned before, the goal by 2024--the goal set out by 
President Karzai and endorsed by just about every Afghan that I 
know--is that Afghanistan will be able to become self-
sustaining for its security forces.
    That is a very stretched goal that is going to require a 
huge growth in the Afghanistan economy. There are other 
prospects in a number of areas--agricultural, transportation, 
mining--for that growth. But in the end, it all depends on 
security. If security is in place, Afghanistan has a lot of 
areas where its economy can grow and meet that goal.
    And that, of course, comes back to the Afghan security 
forces. But as I said, we have been very pleased with the 
response from other countries, and we look forward to giving 
you more details of that once the diplomatic discussions are 
completed.
    Mr. Johnson. I understand also that the poppy crop has 
been--or the level of production has declined dramatically this 
growing season. What is the reason for that?
    Mr. Sedney. The full evaluation of that is still ongoing, 
including by our intelligence agencies. And we should have 
their official reports in a few weeks. But from what we 
understand, there is a combination of factors involved. One of 
the largest is weather and crop blights, other natural factors.
    But we have also seen a decline in production, particularly 
in areas where we have been most effective in our military 
counterinsurgency operations. Particularly in the Helmand 
Province area, where the combination of increased security and 
an effective crop substitution effort--this is a whole-of-
government effort, with the participation from our colleagues 
in the U.S. Agency for International Development, the U.S. 
Department of Agriculture, State Department, and other 
international partners--giving farmers the opportunity to grow 
something else.
    Even though it might be less profitable in one sense is 
much more secure because they don't have the risk of having 
their crop destroyed, they have legitimate outlets for it, they 
are not being preyed upon by Taliban and criminals. So we have 
seen that happening. But I would say the largest reasons, at 
least anecdotally that we can report right now, are natural. 
But they are both natural and as a result of our policies.
    Mr. Johnson. Can you share a little bit with us about the 
Afghanistan police forces that we are also training, and what 
will be our financial commitment, if any, for them after 2014?
    Mr. Sedney. Well, the financial commitment we talked about 
before was for the Afghan security forces, including the army 
and the police; both the uniformed police, the border police, 
and the Afghan local police that the chairman discussed before.
    The police, as a whole, in Afghanistan, as in every other 
conflict and post-conflict societies, does lag behind. The 
police in Afghanistan, Representative Coffman mentioned before, 
casualty rates. The police bear a much higher casualty rate 
than the army. They tend to be in smaller groups, often 
isolated, and are quite often the choice of target for the 
insurgents.
    That combination has made it more challenging to build the 
police. However, we see significant progress in the police. The 
attrition figures that I mentioned before show that the 
policemen are staying in, staying in longer, becoming part of 
their communities in an effective way.
    There are continuing problems with corruption, as 
Representative Coffman mentioned. It is a problem in the police 
forces in many areas in Afghanistan that needs to be addressed. 
I don't know, Steve, if you have any comments about the police, 
from your experience.
    General Townsend. My experience over the last year in RC 
East, where the police continue to improve--and this is most 
notable in the selection and promotion of police leadership--
when I first got there, I had an Afghan police general who was 
my partner. And when I heard word of his impending assignment I 
was quite nervous because he was not very corrupt.
    And I thought an honest guy, trying to do right for his 
country. I was very concerned. And in every case, the incoming 
leader proved to be better than his predecessor. So that was my 
experience in RC East.
    Mr. Johnson. Thank you.
    I yield back.
    Mr. Wittman. Thank you, Mr. Johnson.
    I would like to thank the members of the committee and our 
witnesses today for your testimony. We appreciate the time. And 
with that, this hearing is adjourned.
    [Whereupon, at 3:48 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                             June 20, 2012

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 20, 2012

=======================================================================

      
                     Statement of Hon. Rob Wittman

      Chairman, House Subcommittee on Oversight and Investigations

                               Hearing on

         Afghan National Security Forces: Resources, Strategy,

               and Timetable for Security Lead Transition

                             June 20, 2012

    Today the Oversight and Investigations subcommittee 
convenes the first of a series of hearings related to the 
Afghan National Security Forces.
    At this hearing, we will receive testimony from the 
Department of Defense about the resources and strategy related 
to training the ANSF and the timetable for transitioning 
security lead responsibility from U.S. and NATO forces to the 
ANSF.
    The Department of Defense is represented today by:
        <bullet> LMr. David Sedney, Deputy Assistant Secretary 
        of Defense for Afghanistan, Pakistan and Central Asia; 
        and
        <bullet> LMajor General Stephen Townsend, Director of 
        the Pakistan/Afghanistan Coordination Cell.
    Thank you for your participation.
    We look forward to your testimony on plans for training and 
equipping the ANSF, and details about the projected size and 
related rationale of the ANSF in the near and long term.
    I have just returned from leading a congressional trip to 
Afghanistan. During my visit, I traveled to several provinces 
and met with local leaders, including the chiefs of police. I 
also had the opportunity to talk to military commanders, who 
provided their impressions of the level of support that will be 
needed to create a self-sustaining ANSF. It is my hope that our 
witnesses today can provide further context on these important 
issues. 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             June 20, 2012

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. ANDREWS

    Mr. Sedney. See attached ANA and ANP Charts from April 1230 Report, 
pgs. 20 & 30, with attrition levels through March 2012. [See page 10.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




              ANA Attrition Rates, December 2011 through May 2012

----------------------------------------------------------------------------------------------------------------
     Dec 2011           Jan 2012           Feb 2012           Mar 2012           Apr 2012           May 2012
----------------------------------------------------------------------------------------------------------------
2.3%               1.9%               1.8%               1.2%               1.6%               2.3%
----------------------------------------------------------------------------------------------------------------


              ANP Attrition Rates, December 2011 through May 2012

----------------------------------------------------------------------------------------------------------------
     Dec 2011           Jan 2012           Feb 2012           Mar 2012           Apr 2012           May 2012
----------------------------------------------------------------------------------------------------------------
1.4%               1.0%               1.1%               0.6%               1.3%               1.0%
----------------------------------------------------------------------------------------------------------------


                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. CONAWAY
    General Townsend. [The information referred to is classified and 
retained in the committee files.] [See page 12.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 20, 2012

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. WITTMAN

    Mr. Wittman. How was the 2014 transition deadline initially 
determined?
    Mr. Sedney. The security Transition process was jointly conceived 
and developed by the Afghan Government, the U.S. Government, the North 
Atlantic Treaty Organization (NATO), and the International Security 
Assistance Forces (ISAF) nations at a variety of international fora, 
beginning with the London Conference in January 2010 and culminating 
with the NATO Summit in Lisbon in November 2010. Over this period, the 
Inteqal (``Transition'') Framework, which governs the Afghan-led 
transition process, was developed based on mutually agreed criteria for 
phased transition to Afghan security lead by the end of 2014. Following 
this joint Afghan and NATO/ISAF assessment, the ISAF contributing 
nations gathered in Lisbon and confirmed their commitment to this 
framework, signing a declaration with the Afghan government to transfer 
primary security responsibility from ISAF to the Afghan government by 
the end of 2014.
    Mr. Wittman. On what assumptions about the security environment and 
ANSF size and capability was the 2014 decision based?
    Mr. Sedney. The Inteqal (``Transition'') Framework, which governs 
the Afghan-led transition process, was developed based on mutually 
agreed criteria for phased transition to Afghan security lead by the 
end of 2014. ISAF contributing nations gathered in Lisbon in 2010 and 
confirmed their commitment to this strategy and timeline, signing a 
declaration with the Afghan government to transfer primary security 
responsibility from ISAF to the Afghan government by the end of 2014.
    In 2011, the Department of Defense conducted a comprehensive 
analysis to examine options for the development of the Afghan National 
Security Forces (ANSF), and identified the minimum level of 
capabilities needed to establish and preserve security in Afghanistan 
sufficient to support our core national security goals, and to yield an 
ANSF structure that is sustainable within the limits of Afghan human 
capital, economic capacity, and the International Community's 
willingness to provide long-term assistance.
    The current planned ANSF force of 352,000 is considered necessary 
to complete the Transition to Afghan lead security responsibility by 
the end of 2014, and to secure the country during the transition of 
power following the Afghan Presidential election in 2014, while 
mitigating the effects of the U.S. and coalition drawdowns. In April 
2012, Secretary Panetta and the Afghan Ministers of Defense and 
Interior committed to conducting six-month reviews of the ANSF force 
structure to determine future needs based on the evolving security 
environment.
    Mr. Wittman. What is the evidence that security situation in 
Afghanistan will be sufficiently improved by 2017 to allow the ANSF to 
be reduced by 120,000 troops?
    Mr. Sedney. An improving security environment would allow for a 
carefully planned, conditions-based reduction to an enduring force by 
2017; however, no plans have been finalized at this time. Plans to 
reshape the Afghan National Security Forces (ANSF) into a more 
sustainable force and to refocus toward enduring security roles are 
still in development and pre-decisional. In April 2012, Secretary 
Panetta and the Afghan Ministers of Defense and Interior committed to 
conducting six-month reviews of the ANSF force structure to determine 
future needs based on the evolving security environment.
    Mr. Wittman. If conditions on the ground in Afghanistan do not 
improve as expected what will be the mechanism for revising the current 
sizing strategy?
    Mr. Sedney. General Allen, Commander of the International Security 
Assistance Forces (ISAF), committed to working with the Afghan Ministry 
of Defense and Ministry of Interior to conduct six month reviews of the 
operational conditions and the capability of the Afghan National 
Security Forces (ANSF) in order to adapt the plan for the final size 
and structure of the ANSF as conditions require. The first of these 
reviews will occur following this summer fighting season once ISAF has 
had a chance to observe the ANSF as it increasingly takes the lead and 
its capabilities are tested.
    Mr. Wittman. What factors will determine the size of ANSF after the 
U.S. and NATO transition primary security responsibility to the ANSF?
    Mr. Sedney. The residual type and intensity of the threat in a 
post-2014 environment, and the capabilities exhibited by the Afghan 
National Security Forces (ANSF) in the field, are among the most 
important factors in determining the size of the ANSF after the 
transition. In addition to operational considerations, follow-through 
on international pledges made at the Chicago Conference to help sustain 
the ANSF through 2017 will influence end strength. Accordingly, Afghan 
government's ability to sustain the ANSF using approaches and cost 
factors that are appropriate in an Afghan context will also affect the 
long-term size of the Afghan force.
    Mr. Wittman. What plans are being developed to manage the reduction 
in the ANSF from 352,000 to 230,000?
    Mr. Sedney. Plans for a managed force reduction of the Afghan 
National Security Forces (ANSF) are still in development and pre-
decisional at this time. The Department of Defense is fully aware of 
the challenges associated with managing a responsible reduction, and is 
examining multiple contingencies and policy options. This includes 
examining lessons learned from previous force reductions and 
demobilizations that will help inform future plans.
    Mr. Wittman. When will the ANSF be fully trained?
    Mr. Sedney. The Afghan National Security Forces (ANSF) is on track 
to meet its goal of recruiting a force of approximately 352,000 by 
October 1, 2012. Those recruits will enter training as slots are 
available. The Afghan National Army (ANA) is scheduled to achieve its 
surge-level end-strength of 187,000 soldiers inducted by December 2012, 
and to have these personnel trained, equipped, and fielded by December 
2013. The Afghan National Police (ANP) is expected to reach its surge-
level end-strength of 157,000 personnel inducted by February 2013, and 
to have these personnel trained, equipped, and fielded by December 
2013. The Afghan Air Force (AAF) is expected to reach its goal of 8,000 
airmen inducted in December 2014, and to have these personnel trained, 
equipped, and fielded by December 2017; although we are currently 
examining methods to accelerate this process.
    Mr. Wittman. When will the full-strength ANSF be fielded?
    Mr. Sedney. The Afghan National Army and the Afghan National Police 
are expected to have their full surge-level end strength trained, 
equipped, and fielded by December 2013. The Afghan Air Force are 
expected to have their full surge-level end strength trained, equipped, 
and fielded by December 2017; although we are currently examining 
methods to accelerate this process.
    Mr. Wittman. If security conditions do not improve sufficiently by 
December 2014, will all U.S. combat forces be withdrawn nonetheless by 
that date?
    Mr. Sedney. The transition strategy and framework, established at 
the 2010 NATO Lisbon Summit and reaffirmed at the 2012 NATO Chicago 
Summit, is on track to transition full security responsibility to the 
Afghan Government and the Afghan National Security Forces (ANSF) by 
December 2014. As provided for in the Strategic Partnership Agreement, 
an enduring presence will remain in Afghanistan to ensure that our hard 
fought gains are consolidated and sustained by providing continuing 
support for the ANSF and for counterterrorism operations.
    Mr. Wittman. What conditions will the United States consider when 
determining the extent of further U.S. troop drawdowns?
    Mr. Sedney. The campaign plan calls for several conditions to be 
met before completion of the transition in Afghanistan. The ability of 
the Afghanistan National Security Forces to provide suitable and 
sustainable security for a given area will be one of the key factors in 
determining U.S. and coalition forces presence. Other factors involve 
the ability of the provincial government to provide adequate services 
to the Afghan people, including access to basic social services, rule 
of law, and the capability for economic growth.
    Mr. Wittman. Who will decide the scope and pace of U.S. 
withdrawals?
    Mr. Sedney. The Department of Defense is currently working with 
commanders in the field to determine the scope and pace of additional 
force reductions after October 2012. Plans for further reductions are 
still in development and pre-decisional at this time. Following the 
summer fighting season and the full recovery of U.S. surge forces by 
the end of September 2012, General Allen will conduct an assessment to 
determine force levels for 2013. This assessment will take into account 
the aftermath of the fighting season and the progress of the Afghan 
National Security Forces (ANSF) and evaluate what combination of forces 
will be needed to handle the operating environment in 2013. This 
assessment will then be pushed up the chain of command for review. The 
safety of U.S. forces and the success of the mission are the primary 
concerns in our planning efforts.
    Mr. Wittman. Will a continued, steady drawdown of U.S. troops 
increase the risk of successfully transitioning security to the ANSF by 
the 2014 deadline?
    Mr. Sedney. The scope and pace of additional U.S. force reductions 
after October 2012 are still being determined. Future reductions will 
be tied to the conditions on the ground and the ability of the 
Afghanistan National Security Forces (ANSF) to provide security as they 
assume the lead. The performance of the ANSF over this summer fighting 
season, as we drawdown to the pre-surge level of 68,000 and as the 
Afghans increasingly take the lead in contested areas, will provide a 
good baseline assessment for how the ANSF can handle U.S. force 
reductions in the future.
    Additionally, as the ANSF increase in capability and take the lead 
in conducting operations, the International Security Forces Assistance 
(ISAF) will transition to the Security Force Assistance (SFA) model. 
This represents a shift in focus from conducting counterinsurgency 
operations to providing partnering and advising assets necessary to 
develop and support ANSF operational effectiveness. Finally, in 
accordance with the Strategic Partnership Agreement, we will continue 
to provide support after 2014 to the Afghan Government and the ANSF to 
ensure a sustainable transition of security responsibilities
    Mr. Wittman. What size U.S. military presence will be needed in 
Afghanistan to achieve the U.S. goals of conducting counterterrorism 
operations and training and advising the ANSF?
    Mr. Sedney. The United States, along with its North Atlantic Treaty 
Organization (NATO) Allies, will maintain an enduring presence to 
support the continued training and development of the Afghan National 
Security Forces and to engage in counterterrorism efforts aimed at 
combating al-Qaeda and its affiliates. Future U.S. force level 
requirements will be determined based on what assets are needed to 
support those activities and missions, and will be guided by the need 
to ensure that Afghanistan has the ability to secure itself against 
internal and external threats.
    Towards that end, an Afghanistan-United States Bilateral Commission 
was established under the Strategic Partnership Agreement to promote 
cooperation and monitor progress. A U.S.-Afghanistan Working Group on 
Defense and Security will conduct regular assessments of the threat 
level in Afghanistan as well as the Afghan government's security and 
defense requirements. Recommendations will be made to the Bilateral 
Commission that should establish mutually determined levels of support 
and assistance.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. CRITZ
    Mr. Critz. How willing is the Afghan government to accept the 
transition?
    Mr. Sedney. [The information was not available at the time of 
printing.]
    Mr. Critz. How confident are we that the Afghan government is 
aligned with U.S. interests? How do we make sure our interests are 
aligned?
    Mr. Sedney. [The information was not available at the time of 
printing.]
    Mr. Critz. Is there any evidence that old members of Northern 
Alliance are rearming for possible civil war after transition, as 
suggested by CRS?
    Mr. Sedney. [The information was not available at the time of 
printing.]
    Mr. Critz. Could you please identify any provinces or locations 
where you are concerned local militia may cause problems for the 
national Afghan government?
    Mr. Sedney. [The information was not available at the time of 
printing.]
    Mr. Critz. How have the most recent Parliamentary elections (2010) 
impacted the opinion of Afghans on the legitimacy of the government and 
its ability to provide security?
    Mr. Sedney. [The information was not available at the time of 
printing.]
    Mr. Critz. What is your opinion about governing capacity at local 
levels?
    Mr. Sedney. [The information was not available at the time of 
printing.]

    Mr. Critz. How willing is the Afghan government to accept the 
transition?
    General Townsend. [The information was not available at the time of 
printing.]
    Mr. Critz. How confident are we that the Afghan government is 
aligned with U.S. interests? How do we make sure our interests are 
aligned?
    General Townsend. [The information was not available at the time of 
printing.]
    Mr. Critz. Is there any evidence that old members of Northern 
Alliance are rearming for possible civil war after transition, as 
suggested by CRS?
    General Townsend. [The information was not available at the time of 
printing.]
    Mr. Critz. Could you please identify any provinces or locations 
where you are concerned local militia may cause problems for the 
national Afghan government?
    General Townsend. [The information was not available at the time of 
printing.]
    Mr. Critz. How have the most recent Parliamentary elections (2010) 
impacted the opinion of Afghans on the legitimacy of the government and 
its ability to provide security?
    General Townsend. [The information was not available at the time of 
printing.]
    Mr. Critz. What is your opinion about governing capacity at local 
levels?
    General Townsend. [The information was not available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. Breakdown of $4.1b spending. Does it include train and 
equip, SFA (Security Assistance Force) or only direct costs to train, 
equip, and pay for salaries and operations of the ANSF?
    Mr. Sedney. [The information referred to is classified and retained 
in the committee files.]
    Mr. Cooper. Describe the Security Force Assistance (SFA) model: 
numbers, ROE, etc. Where are we with the planning for this?
    Mr. Sedney. ISAF Security Force Assistance (SFA) activities are the 
cornerstone of developing ANSF capacity in support of Transition. 
Advisor Teams are instrumental in advising and assisting the fielded 
ANSF as they assume the lead for security through the Transition 
process. With Afghan leadership and our continued support, the ANSF 
will become an institution of national unity, the ultimate mechanism 
for defeating the insurgency and the long-term guardian of Afghan 
peace, stability, and prosperity well after 2014. This model 
operationalizes the shift from ISAF's role in combat operations and 
partnering with ANSF units to a mission focused primarily on training, 
advising, and assistance.
    The exact details for SFA are classified by Supreme Headquarters 
Allied Powers--Europe (SHAPE). The Department of Defense can provide a 
classified briefing describing the numbers, locations, and composition 
of SFA Advisor Teams.
    The planning for training and deploying Advisor Teams remains on 
schedule. This model is not entirely new. It builds upon the experience 
and lessons learned from previous mentor teams. To codify these 
lessons, SHAPE published a detailed concept of operations in March 
2012. The first U.S. Advisor Teams deployed in January 2012 in advance 
of the concept of operations. Successive U.S. Army and Marine Advisor 
Teams have been deploying throughout 2012. The second phase of Advisor 
Teams, with U.S. and international contributions, will arrive in the 
fall of 2012. Recognizing the challenges in shifting to a new model 
while still engaged in combat operations, SHAPE and the U.S. are 
engaging partner nations to continue to support the SFA model through 
2014. This effort will ensure achieving the Lisbon Transition 
milestone, though some requirements will end as ANSF units demonstrate 
the capacity for independent operations and geographic areas 
successfully exit from Transition.
    Mr. Cooper. How many Taliban are we fighting? How many of these are 
``hard core'' ideologically committed fighters and how many are part-
time, local fighters? How are these numbers derived? What are the 
metrics we use to determine if someone is a Taliban fighter?
    Mr. Sedney. [The information referred to is classified and retained 
in the committee files.]
    Mr. Cooper. Explain in more detail why the poppy crop is down? How 
much is due to environmental factors (drought, blight, etc.) and how 
much due to ISAF or GIROA efforts? Can this lower level of production 
be sustained once U.S. forces withdraw?
    Mr. Sedney. The primary causes for the lower poppy crop yield are 
environmental factors, including bad weather and poor soil conditions. 
It is uncertain whether blight can be attributed as a factor in the 
lower crop yield. The poor soil is, in part, a result of the success of 
the Afghan government-led Helmand Food Zone program, which increased 
food production and reduced poppy cultivation in food zone areas with 
higher soil quality. This pushed poppy farmers away from the province's 
fertile land to a more austere desert environment. The weather this 
year has been particularly unfavorable to poppy crops with colder 
temperatures and more precipitation than in past years.
    U.S. forces in Afghanistan do not directly support poppy 
eradication efforts other than to provide in extremis support to 
eradication teams under attack, consistent with North Atlantic Treaty 
Organization (NATO)/International Security Assistance Force (ISAF) 
policy. The U.S. Department of State supports the Afghan Government's 
``Governor Led Eradication'' program. Although final verified results 
are not available for the Governor Led Eradication program at this 
time, the program is on track to more than double last year's result of 
3,810 hectares of poppy eradicated. Eradication efforts must be 
carefully planned to inflict the most damage on major drug producer's 
poppy crop and be focused in areas where farmers have access to 
alternatives to poppy cultivation. This requires a whole-of-government 
approach led by the Afghan Government with enabling support from the 
U.S. Government.
    Sustained lower level production will depend, in part, on continued 
U.S. assistance to Afghanistan after 2014. Department of Defense is 
working presently on a post-2014 CN strategy for Afghanistan.
    Mr. Cooper. How do we deal with the Pakistan safe havens? Is 
Pakistan currently taking actions to eliminate safe havens for the 
Haqqani Network, the Quetta Shura Taliban, or HiG? Do we expect such 
actions in the future? Why or why not?
    Mr. Sedney. Militant and terrorist networks continue to exploit 
Pakistan-based sanctuaries. At the same time, there appears to be a 
growing recognition on the part of many Pakistani leaders that a secure 
and stable Afghanistan is vital for Pakistan's future. We look forward 
to Pakistan taking action towards achieving this goal. These 
sanctuaries remain a strategic threat to the campaign in Afghanistan. A 
capable Afghan National Security Forces (ANSF), along with the support 
of International Security Assistance Force (ISAF) training, advice, 
assistance, layered defense, and enablers, is the best mechanism to 
mitigate the effects of these sanctuaries in Afghanistan.
    Nevertheless, the threat must also be mitigated within Pakistan, a 
security interest that Pakistan shares. Pakistan has suffered enormous 
casualties as a result of transnational terrorist networks and from 
acts of terrorism that often emanate from sanctuaries inside Pakistan. 
This includes more than 11,000 military personnel killed or wounded in 
action and more than 30,000 civilian causalities since September 11, 
2001. Security assistance is a key tool designed to advance U.S. 
interests by helping Pakistan's efforts in this fight against the 
militants that enable safe havens, and the Coalition Support Fund 
authority is used to reimburse Pakistani efforts in support of 
Operation Enduring Freedom.
    Nevertheless, where Pakistan's action to combat sanctuaries falls 
short, the U.S. Government will continue to engage Pakistan's civilian 
and military leaders and urge them to take action to dismantle these 
sanctuaries. This includes holding Pakistan to its commitments to 
pressure the Haqqani Network and to encourage all Taliban elements as 
well as other Afghan groups, including Hizb-e-Islami, to join a 
political settlement in Afghanistan.
    Mr. Cooper. How do we deal with Afghan government corruption? What 
are the impacts of corruption? What level of confidence should NATO 
members have that corruption will be controlled post-2014? Does 
corruption currently undermine the effectiveness of GIROA and the ANSF? 
Is governmental corruption linked at all to the Taliban's ability to 
recruit new fighters?
    Mr. Sedney. The United States has implemented a number of 
initiatives both to support the Afghan government in its efforts to 
reduce corruption and organized crime, and also to ensure that U.S. 
contracting and development assistance are not subject to fraud and 
corruption. These initiatives include: sustained engagement, capacity-
building, and technical assistance in key Afghan ministries; an 
expansion of interagency efforts to mature conduct thorough assessments 
of organized crime and corruption in key sectors as a basis for action; 
the creation of joint, Presidentially-sponsored forums to promote 
inter-ministerial coordination and develop concrete counter-corruption 
recommendations; and the development of investigative leads and other 
forms of support for vetted Afghan law enforcement, investigative, and 
oversight bodies. Combined Joint Interagency Task Force (CJIATF)-
Shafafiyat coordinates counter-corruption efforts within the 
International Security Assistance Force (ISAF). CJIATF-Shafafiyat 
fosters a common understanding of the corruption problem, plans and 
implements ISAF anti-corruption efforts, and integrates ISAF anti-
corruption activities with those of key Afghan and international 
partners in an effort to address President Karzai's goal of an ``active 
and honest administration'' in Afghanistan.
    Despite this sustained effort, corruption remains one of the 
biggest challenges facing Afghanistan. It undermines the effectiveness, 
cohesion, and legitimacy of the Afghan Government and alienates 
elements of the population. It deters investment, impedes licit 
economic growth, enables criminal networks to influence important State 
institutions and functions, and facilitates the narcotics trade and 
other transnational threats emerging from Afghanistan. Therefore, 
counter-corruption efforts are essential to strengthening critical 
Afghan institutions and consolidating gains in the wake of improved 
security as the process of transition continues.
    A series of recent Afghan government commitments towards anti-
corruption and good governance has instilled confidence in the 
international community. Cooperating to strengthen Afghan institutions 
and governance is one of the basic tenets of the U.S.-Afghan Strategic 
Partnership Agreement and a critical component underpinning the 
enduring partnership. At the Tokyo conference in early July, the 
international donor community and Afghanistan developed a framework for 
accountability, whereby money would be withheld if Afghanistan cannot 
meet benchmarks for improving governance and finance management, as 
well as for safeguarding the democratic process. Following this 
conference, President Karzai issued a 23-page decree ordering the 
Supreme Court to accelerate corruption investigations and requiring his 
ministries, prosecutors, and judiciary to institute a list of 
government reforms to address bribery, cronyism, and nepotism.
    Mr. Cooper. In your opinion, what will determine ANSF success? What 
factors could undermine ANSF capability and success in the future?
    Mr. Sedney. The Afghan National Security Forces (ANSF) have made 
tremendous strides in their development as a force capable of providing 
security for Afghanistan. As of June, Afghan forces were in the lead 
for over 70% of total conventional operations across Afghanistan. 
Efforts to continue developing ANSF leadership, improving the overall 
quality of the force, and further expanding enabler capabilities, such 
as logistics, close air support, medical evacuation, and intelligence 
will affect the long-term success of the ANSF's ability to provide 
security for the Afghan people.
    Factors that will challenge the ANSF's success in the future 
include limited resources to fully implement current development plans, 
sourcing the right mix of Security Force Assistance Teams to mentor and 
advise ANSF units, developing an ANSF enabler capability, and improving 
ANSF retention and attrition rates to sustain overall force quality.
    Mr. Cooper. Can the Afghan Local Police (ALP) be sustained when we 
leave? Who will fund and train? Does the Afghan Ministry of the 
Interior have the ability to effectively oversee and control the ALP 
sites and units in the absence of USSOF?
    Mr. Sedney. The Afghan Ministry of Interior will continue to 
administer the Afghan Local Police (ALP) program after the security 
transition is completed at the end of 2014. The ALP model is for it to 
become a program commanded and controlled by local Provincial and 
District Chiefs of Police (COP). It was established in 2010 by an 
Afghan Presidential Decree. Pay, uniforms, and equipment are 
distributed through the Afghan National Police system. U.S. Special 
Operation Forces and Coalition Forces continue to develop capacity in 
the ALP and will continue to work with District COPs, and Provincial 
COPs to develop and maintain a sustainable program. These over-watch 
efforts are part of a long-term engagement plan to transition security 
to Afghan control.
    Mr. Cooper. As ALP is part of MOI, is ALP officially considered 
part of ANSF? If not, why is ALP funded through ANSF?
    Mr. Sedney. The Afghan Local Police (ALP) are validated by and 
report to the Ministry of Interior. They are not part of the Afghan 
National Police tashkil and do not count toward the Afghan National 
Security Force approved level of 352,000 personnel. However, as part of 
the Ministry of Interior, the ALP are funded through the Afghanistan 
Security Forces Fund.
    Mr. Cooper. Explain the procedures by which we control ALP funding 
and make sure it won't be misspent.
    Mr. Sedney. The Afghanistan Resources Oversight Council (AROC) 
oversees the management of all Afghanistan Security Force Funds (ASFF). 
ASFF provides support to the Ministry of Interior for the Afghan Local 
Police (ALP) for salaries, equipment, and recruiting. The funds are 
executed in accordance with standard procedures used for all U.S. 
financial support provided to the Afghan National Security Forces. The 
Combined Security Transition Command-Afghanistan oversees the 
obligation and execution of the ASFF.
    Mr. Cooper. General Allen has stated there are three key factors 
for successful transition in Afghanistan: 1) security, 2) governance, 
and 3) development. Do you agree? Are there any other factors that you 
believe are significant?
    Mr. Sedney. Yes, I agree with General Allen. Security, governance, 
and development are the three pillars of the Inteqal ``Transition'' 
Framework, which governs the transition process. Improvements in 
security conditions and the performance of the Afghan National Security 
Forces (ANSF) have been the keys to success thus far in the transition 
process, but good governance and development are necessary to ensure 
that those gains result in sustainable Afghan self-reliance. Although 
there are many factors influencing the success of Transition, regional 
security and cooperation from Pakistan and Iran is another critical 
factor. The insurgency's safe haven in Pakistan remains one of the 
biggest threats to a durable and sustainable Afghanistan. Strengthening 
border coordination and cooperation between Afghanistan and its 
neighbors will be necessary for long-term success.
    Mr. Cooper. LTG Bolger stated that if the ANSF is reduced below 
352,000 he believed many of those that leave ANSF will go into civilian 
positions with the Afghanistan government. Do you agree? Will there be 
any program to facilitate such placements? Do those personnel have 
skills that would be directly applicable to such positions? Can GIROA 
support such an increased number of personnel?
    Mr. Sedney. Plans for a managed force reduction of the Afghan 
National Security Forces (ANSF) from 352,000 to 230,000, which would 
include contingency plans for the ``reintegration'' of demobilized 
personnel, are still in development. A common feature of reintegration 
programs during past demobilizations is job training and job placement 
to ensure that reintegrees have the appropriate knowledge and skills to 
pursue alternate livelihoods. It is unknown at this time what the 
Afghan government's civilian workforce requirements will be three to 
four years from now and whether they will be able to absorb any of 
these personnel.
    Mr. Cooper. Please explain the corrective actions and 
investigations taken regarding the alleged loss of $42 million at the 
Dawood hospital.
    Mr. Sedney. Since 2010, the U.S. and Afghan governments have 
conducted a series of investigations, including several by the 
Department of Defense Inspector General for Special Plans and 
Operations (DOD IG-SPO), on the management, medical care services, and 
logistics capability and accountability at Dawood National Military 
Hospital. These investigations arose from concerns raised by the North 
Atlantic Treaty Organization (NATO) Training Mission Afghanistan (NTM-
A) regarding the status of the medical logistics system within the 
Afghan National Security Forces (ANSF) and the alleged mismanagement 
and corruption at Dawood Hospital.
    At the urging of International Security Assistance Force (ISAF) 
leadership, the Afghan Ministry of Defense (MOD) replaced key 
leadership at both Dawood Hospital and the Medical Command, including 
the Afghan National Army (ANA) Surgeon General and Commander of Dawood 
Hospital, General Ahmed Zia Yaftali, in December 2010. New leadership 
was brought in to establish more stringent planning and oversight and 
to advance the professional conduct and accountability of the medical 
staff and administrators.
    Based on the findings and recommendations of DOD IG-SPO, NTM-A 
medical advisors and mentors have worked in close coordination with 
their Afghan counterparts to establish systems and processes that have 
significantly improved logistics and supply management and have 
introduced greater transparency and efficiency. These changes have 
improved accountability while also reducing theft, misappropriation, 
unauthorized use, and improper distribution.
    Numerous oversight mechanisms are now in place to ensure continued 
progress. The Logistics Training Advisory Group (LTAG) and Medical 
Training Advisory Group (MTAG) conduct continuous ``Battle Field 
Circulations'' to provide daily monitoring and to ensure compliance. 
The Logistics Validation Team provides quarterly assessments. DOD IG 
and the Afghan MOD continue to monitor the progress and provide 
frequent reviews.
    Additionally, an Afghan inter-ministerial investigative team with 
the High Office of Oversight and Anti-Corruption (HOOAC) is currently 
investigating the allegations of corruption and mismanagement at Dawood 
hospital. The HOOAC investigation is supported by sustained ISAF and 
interagency engagement and is overseen by a joint Afghan-international 
Special Cases Committee.
    Mr. Cooper. Please describe in detail the operational assessment 
process used to evaluate the ANSF. What data is collected? Who 
evaluates the data? What method of analysis is used to evaluate the 
data? Who makes the final decision as to a CUAT determination?
    Mr. Sedney. The CUAT, a method used to assess progress in the 
development of the ANSF, was developed in early 2010 by the ISAF Joint 
Command (IJC) with the first reported cycle (referred to as Cycle 1) 
being released in May 2010. It was implemented to inform Coalition 
commanders on progress of the ANSF in their area of operations and to 
provide input to the multiple reporting requirements of the ISAF 
headquarters. The CUAT was developed through interaction between the 
staffs of ISAF, IJC, and the Regional Commands (RCs) and was based on 
existing reporting constructs in place at the time. The CUAT was 
developed because assessment tools in place at the time were not 
providing sufficient detail on the development and progress of the 
ANSF.
    The CUAT is completed by the commander of the partnered Coalition 
unit or advisor team that has responsibility of an ANSF unit. Once 
completed by the partnered Coalition unit, the CUAT is reviewed by the 
partnered Coalitions unit's chain of command and forwarded to IJC for 
review. IJC reviews the CUATs with the Regional Commands and compiles a 
summary table of the CUAT cycle results which are forwarded to ISAF 
headquarters for use in various reporting requirements.
    The primary purpose of the CUAT is to rate an ANSF unit's 
effectiveness by assigning the unit a rating on a five-level scale 
(known as Ratings Definition Levels, or RDLs) based on the unit's 
ability to operate independently. An RDL rating reflects an ANSF unit's 
overall operational effectiveness; however, this overall rating is 
derived from a more detailed assessment of each unit. The overall score 
is based on nine capabilities-based functional areas: leadership, 
operations, intelligence, logistics, equipping, personnel, maintenance, 
communications, and training and education. Those functional 
assessments are based on quantitative data (personnel, equipment, and 
training) as well as qualitative assessments by the Coalition partnered 
advisors on areas affecting the overall effectiveness of the unit. 
Leadership assessments (``very positive,'' ``positive,'' ``neutral,'' 
negative,'' and ``very negative'') and partnering data are also 
incorporated into CUAT reports.
    While the CUAT in and of itself is an incomplete assessment, it has 
aided in meeting the requirement to track the ANSF's growth and 
development towards a capable fighting force. ISAF and its subordinate 
commands are continuously scrutinizing both the CUAT and their overall 
approach to assessing the ANSF.

    Mr. Cooper. Breakdown of $4.1b spending. Does it include train and 
equip, SFA (Security Assistance Force) or only direct costs to train, 
equip, and pay for salaries and operations of the ANSF?
    General Townsend. [The information referred to is classified and 
retained in the committee files.]
    Mr. Cooper. Describe the Security Force Assistance (SFA) model: 
numbers, ROE, etc. Where are we with the planning for this?
    General Townsend. Security Force Assistance (SFA) is a central 
pillar of the counterinsurgency campaign in Afghanistan. The SFA model 
supports ISAF in assuming a supporting role in the campaign while 
enabling the ANSF to assume the lead security role across all of 
Afghanistan as part of the Lisbon-based security transition process. 
SFA teams vary in size based on operational requirements and are 
focused on executing train, advise, and assistance missions with ANSF 
counterparts (Army and Police). SFA teams operate under the standard 
ISAF Rules of Engagement (ROE) and retain the inherent right to self-
defense. Planning is complete while deployment of teams and overall SFA 
footprint will adjust as units improve over time.
    Mr. Cooper. How many Taliban are we fighting? How many of these are 
``hard core'' ideologically committed fighters and how many are part-
time, local fighters? How are these numbers derived? What are the 
metrics we use to determine if someone is a Taliban fighter?
    General Townsend. [The information referred to is classified and 
retained in the committee files.]
    Mr. Cooper. Is the ANSF respected by Afghans? Is it respected by 
the Taliban? Are there differences in perceptions about the various 
elements of the ANSF?
    General Townsend. [The information referred to is classified and 
retained in the committee files.]
    Mr. Cooper. Explain in more detail why the poppy crop is down? How 
much is due to environmental factors (drought, blight, etc.) and how 
much due to ISAF or GIROA efforts? Can this lower level of production 
be sustained once U.S. forces withdraw?
    General Townsend. The primary causes for the lower poppy crop yield 
are environmental factors such as bad weather and poor soil conditions. 
Blight cannot be attributed as a factor with any certainty. The poor 
soil is, in part, a result of the success of the GIROA-led Helmand Food 
Zone program which reduced poppy cultivation significantly in the food 
zone while pushing poppy farmers away from the province's fertile land 
to a more austere desert environment. The weather this year has been 
particularly unfavorable to poppy crops with colder temperatures and 
more precipitation than in past years.
    U.S. forces in Afghanistan do not directly support poppy 
eradication efforts other than to provide in extremis support to 
eradication teams under attack, consistent with NATO/ISAF policy. The 
U.S. Department of State supports the Afghan Government's ``Governor 
Led Eradication'' (GLE) program. While final, verified results are not 
available for the GLE at this time, the program is on track to more 
than double last year's result of 3,810 hectares of poppy eradicated. I 
believe that the eradication effort must be carefully planned to 
inflict the most damage on major drug producer's poppy crop and be 
focused in areas where farmers have access to alternatives to poppy 
cultivation. This requires a whole-of-government approach led by the 
Afghan Government with enabling support from the U.S. Government.
    Sustained lower level production will depend, in part, on continued 
U.S. assistance to GIROA after 2014. The Department of Defense (DOD) is 
working presently on a post-2014 CN strategy for Afghanistan; I look 
forward to providing a copy of this strategy in November 2012.
    Mr. Cooper. How do we deal with the Pakistan safe havens? Is 
Pakistan currently taking actions to eliminate safe havens for the 
Haqqani Network, the Quetta Shura Taliban, or HiG? Do we expect such 
actions in the future? Why or why not?
    General Townsend. Militant and terrorist networks continue to 
exploit Pakistan-based sanctuaries. These sanctuaries remain a 
strategic threat to the campaign in Afghanistan. A capable ANSF, along 
with the support of ISAF training, advice, assistance, layered defense, 
and enablers, is the best mechanism to mitigate the effects of these 
sanctuaries in Afghanistan.
    Nevertheless, the threat must also be mitigated within Pakistan, 
which is an interest that, to a degree, Pakistan shares. Pakistan has 
suffered enormous casualties as a result of military operations against 
the networks that enable safe havens and from acts of terrorism that 
often emanate from the sanctuaries, including more than 11,000 military 
personnel killed or wounded in action and more than 30,000 civilian 
causalities. Security assistance is a key tool designed to advance U.S. 
interests by helping Pakistan's efforts in this fight against the 
militants that enable safe havens; Coalition Support Funds, meanwhile, 
reimburse Pakistani efforts in support of Operation Enduring Freedom.
    Nevertheless, where Pakistan's support falls short, we will 
continue to engage Pakistan's civilian and military leaders to take 
action on its side of the border to dismantle these sanctuaries, to 
include holding Pakistan to its commitments to squeeze the Haqqani 
Network and encouraging all Taliban elements as well as other Afghan 
groups, including Hizb-e-Islami to join a political settlement in 
Afghanistan, as Pakistan's previous Prime Minister publicly committed.
    Mr. Cooper. How do we deal with Afghan government corruption? What 
are the impacts of corruption? What level of confidence should NATO 
members have that corruption will be controlled post-2014? Does 
corruption currently undermine the effectiveness of GIROA and the ANSF? 
Is governmental corruption linked at all to the Taliban's ability to 
recruit new fighters?
    General Townsend. The United States has implemented a number of 
initiatives to support the Afghan Government in its efforts to reduce 
corruption and organized crime, while working to ensure the U.S. 
contracting and development assistance are not subject to fraud and 
corruption. These initiatives include sustained engagement, capacity-
building, and technical assistance in key Afghan ministries, an 
expansion of interagency efforts to mature organized crime and 
corruption estimates in key sectors as a basis for action, the creation 
of joint, Presidentially-sponsored forums to promote inter-ministerial 
coordination and develop concrete counter-corruption recommendations, 
and the development of investigative leads and other forms of support 
for vetted Afghan law enforcement, investigative, and oversight bodies. 
CJIATF-Shafafiyat coordinates counter-corruption efforts within ISAF, 
fostering a common understanding of the corruption problem, planning 
and implementing ISAF anti-corruption efforts, and integrating ISAF 
anti-corruption activities with those of key Afghan and international 
partners, to address President Karzai's goal of an ``active and honest 
administration'' in Afghanistan.
    Despite this sustained effort, corruption remains one of the 
biggest challenges in Afghanistan. It undermines the effectiveness, 
cohesion, and legitimacy of the Afghan Government and alienates 
elements of the population. It deters investment, impedes licit 
economic growth, enables criminal networks to influence important state 
institutions and functions, and facilitates the narcotics trade and 
other transnational threats emerging from Afghanistan. Counter-
corruption efforts are therefore essential to strengthening critical 
Afghan institutions and consolidating gains in the wake of improved 
security as the process of transition continues.
    A series of recent commitments made by Afghanistan towards anti-
corruption and good governance has instilled confidence in the 
international community. Strengthening Afghan institutions and 
governance was one of the basic tenets of the U.S.-Afghan Strategic 
Partnership Agreement and a critical component underpinning our 
enduring partnership. At the Tokyo conference in early July, the 
international donor community reached agreement with Afghanistan on a 
framework for accountability, whereby money will be withheld if the 
country cannot meet benchmarks for improving governance and finance 
management, as well as safeguarding the democratic process. Following 
this conference, President Karzai issued a 23-page decree ordering the 
Supreme Court to accelerate investigations and his ministries, 
prosecutors, and judiciary to institute a list of government reforms 
battling bribery, cronyism, and nepotism.
    Mr. Cooper. In your opinion, what will determine ANSF success? What 
factors could undermine ANSF capability and success in the future?
    General Townsend. The ANSF has made tremendous strides in their 
development as a force capable of providing security for Afghanistan. 
Continuing to develop ANSF leadership, improving the overall quality of 
the force, and further developing enabler capabilities, such as 
logistics, close air support, medevac, and intelligence will affect the 
long-term success of security transition and the ANSF's ability to 
provide security for the Afghan people.
    Factors which will challenge the success of the ANSF in the future 
include limited resources to fully implement current development plans, 
sourcing the right mix of Security Force Assistance Teams to mentor/
advise ANSF units, development of ANSF enabler capability, and 
improving ANSF retention and attrition rates to sustain overall force 
quality.
    Mr. Cooper. Can the Afghan Local Police (ALP) be sustained when we 
leave? Who will fund and train? Does the Afghan Ministry of the 
Interior have the ability to effectively oversee and control the ALP 
sites and units in the absence of USSOF?
    General Townsend. The Afghan Ministry of Interior will continue to 
administer the Afghan Local Police program after security transition is 
completed at the end of 2014. The Commander of ISAF has submitted a 
request through CENTCOM to SECDEF, requesting enduring ALP funding 
post-2014. ALP is an Afghan-owned program commanded and controlled by 
local Provincial and District Chiefs of Police (COP) that was 
established by a 2010 Afghan Presidential Decree. Pay, uniforms, and 
equipment are all distributed through the Afghan National Police 
system. U.S. Special Operation Forces and Coalition Forces continue to 
develop capacity in the ALP, District COPs, and Provincial COPs to 
maintain a sustainable program. These overwatch efforts are part of a 
long term engagement plan to transition security to Afghan control, 
ensuring that ALP will have effective oversight in the absence of daily 
coalition presence.
    Mr. Cooper. What are the strengths and weaknesses of the ALP?
    General Townsend. The program's primary strength lies in the local 
selection process of ALP members. They are handpicked by the local 
village elders to protect the villages they come from. This differs 
from the ANP and ANA model where the majority of soldiers and police 
officers come from different regions of Afghanistan to perform their 
duties.
    The ALP program has significant Afghan and coalition oversight 
through the Village Stability Operations initiative, and links together 
the local elders, GIRoA (for pay and weapons), and the Chiefs of 
Police. Additionally, the National Directorate of Security (NDS) 
performs background checks during in-processing adding another layer of 
quality control. The success of the program is dependent upon the 
leadership and when needed, tactical support by the District and 
Provincial Chiefs of Police. ALP works best in areas where police 
leaders understand and embrace the program as part of the fabric of 
Afghan National Security Force composition in rural areas. High 
casualty rates among ALP and local leaders at the sub-national level 
continue to be a challenge as well.
    Mr. Cooper. As ALP is part of MOI, is ALP officially considered 
part of ANSF? If not, why is ALP funded through ANSF?
    General Townsend. The Afghan Local Police are validated by and 
report to the Ministry of Interior. They are not part of the Afghan 
National Police tashkil and do not count toward the approved Afghan 
National Security Force approved level of 352,000. However, they are a 
legitimate GIRoA security force and eligible for funding from the 
Afghanistan Security Forces Fund.
    Mr. Cooper. General Allen has stated there are three key factors 
for successful transition in Afghanistan: 1) security, 2) governance, 
and 3) development. Do you agree? Are there any other factors that you 
believe are significant?
    General Townsend. Yes, I agree with General Allen. Security, 
governance, and development are the three pillars of the Inteqal 
``Transition'' Framework, which governs the transition process, and are 
carefully evaluated and monitored to judge the readiness of an area for 
each successive stage of transition. Improvements in security 
conditions and the performance of the Afghan National Security Forces 
(ANSF) have been the keys to success so far in the transition process, 
but good governance and development will help ensure that those gains 
result in sustainable self-reliance. While there are many factors 
influencing the success of transition, another critical one is regional 
security and cooperation. The insurgency's safe haven in Pakistan 
remains one of the biggest threats to a durable and sustainable 
Afghanistan. Strengthening border coordination and cooperation between 
Afghanistan and its neighbors will be necessary for any long term 
success.
    Mr. Cooper. LTG Bolger stated that if the ANSF is reduced below 
352,000 he believed many of those that leave ANSF will go into civilian 
positions with the Afghanistan government. Do you agree? Will there be 
any program to facilitate such placements? Do those personnel have 
skills that would be directly applicable to such positions? Can GIROA 
support such an increased number of personnel?
    General Townsend. Plans for the managed force reduction of the 
Afghan National Security Forces (ANSF) from 352,000 to 230,000, which 
includes contingency plans for the ``reintegration'' of demobilized 
personnel, are still in development. A common feature of reintegration 
programs during demobilizations in the past is job training and job 
placement to ensure that reintegrees have the appropriate knowledge and 
skills to pursue alternate livelihoods. It is unknown at this time what 
GIROA's civilian workforce requirements will be 3-4 years from now and 
whether they will be able to absorb any of these personnel. However, 
any job training and placement reintegration program for demobilized 
ANSF will take into account these market demands.
    Mr. Cooper. What are the strengths and weaknesses of the Taliban 
insurgency?
    General Townsend. [The information referred to is classified and 
retained in the committee files.]
    Mr. Cooper. Please explain the corrective actions and 
investigations taken regarding the alleged loss of $42 million at the 
Dawood hospital.
    General Townsend. Since 2010, the governments of the United States 
and Afghanistan have conducted a series of investigations, including 
several by the Department of Defense Inspector General for Special 
Plans and Operations (DOD IG-SPO), on the management, medical care 
services, and logistics capability and accountability at Dawood 
National Military Hospital. These investigations arose from concerns 
raised by the NATO Training Mission Afghanistan (NTM-A) regarding the 
status of the medical logistics system within the Afghan National 
Security Forces (ANSF) and the alleged mismanagement and corruption at 
Dawood Hospital.
    At the urging of International Security Assistance Force (ISAF) 
leadership, the Afghan Ministry of Defense moved to replace key 
leadership at both Dawood Hospital and the Medical Command, including 
the ANA Surgeon General and Commander of Dawood Hospital, General Ahmed 
Zia Yaftali, in December 2010. New leadership was brought in to 
establish more stringent planning and oversight to advance the 
professional conduct and accountability of the medical staff and 
administrators.
    Based on the findings and recommendations of DOD IG-SPO, NTM-A 
medical advisors and mentors have worked in close coordination with 
their Afghan counterparts to stand up systems and processes that have 
significantly improved logistics and supply management and have 
introduced greater transparency and efficiency. These changes have 
improved accountability while reducing theft, misappropriation, 
unauthorized use and improper distribution.
    Numerous oversight mechanisms are in place to ensure continued 
progress. The Logistics Training Advisory Group (LTAG) and Medical 
Training Advisory Group (MTAG) conduct continuous ``Battle Field 
Circulations'' to provide daily follow up and ensure compliance. The 
Logistics Validation Team provides quarterly assessments. DOD IG and 
the Afghan MOD continue to monitor the progress and provide frequent 
reviews.
    Additionally, the allegations of corruption and mismanagement at 
Dawood hospital are currently under criminal investigation by an Afghan 
inter-ministerial investigative team with the High Office of Oversight 
and Anti-Corruption (HOOAC), supported by sustained ISAF and the 
interagency engagement and overseen by a joint Afghan-international 
Special Cases Committee. These investigations are still ongoing.
    Mr. Cooper. Please describe in detail the operational assessment 
process used to evaluate the ANSF. What data is collected? Who 
evaluates the data? What method of analysis is used to evaluate the 
data? Who makes the final decision as to a CUAT determination?
    General Townsend. The CUAT, a method used to assess progress in the 
development of the ANSF, was developed in early 2010 by the ISAF Joint 
Command (IJC) with the first reported cycle (referred to as Cycle 1) 
being released in May 2010. It was implemented to inform Coalition 
commanders on progress of the ANSF in their area of operations and to 
provide input to the multiple reporting requirements of the ISAF 
headquarters. The CUAT was developed through interaction between the 
staffs of ISAF, IJC, and the Regional Commands (RCs) and was based on 
existing reporting constructs in place at the time. The CUAT was 
developed because assessment tools in place at the time were not 
providing sufficient detail on the development and progress of the 
ANSF.
    The CUAT is completed by the commander of the partnered Coalition 
unit or advisor team that has responsibility of an ANSF unit. Once 
completed by the partnered Coalition unit, the CUAT is reviewed by the 
partnered Coalitions unit's chain of command and is entered into the 
CIDNE database. IJC reviews the CUATs with the Regional Commands and 
compiles a summary table of the CUAT cycle results which are forwarded 
to ISAF headquarters for use in various reporting requirements.
    The primary purpose of the CUAT is to rate an ANSF unit's 
effectiveness by assigning the unit a rating on a five-level scale 
(known as Ratings Definition Levels, or RDLs) based on the unit's 
ability to operate independently. An RDL rating reflects an ANSF unit's 
overall operational effectiveness; however, this overall rating is 
derived from a more detailed assessment of each unit. The overall score 
is based on nine capabilities-based functional areas: leadership, 
operations, intelligence, logistics, equipping, personnel, maintenance, 
communications, and training and education.
    While the CUAT in and of itself is an incomplete assessment, it has 
aided in meeting the requirement to track the ANSF's growth and 
development towards a capable fighting force. ISAF and its subordinate 
commands are continuously scrutinizing both the CUAT and their overall 
approach to assessing the ANSF.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
